<html>
<title> - TRANSATLANTIC SECURITY CHALLENGES: CENTRAL AND EASTERN EUROPE</title>
<body><pre>[Senate Hearing 113-475]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 113-475
 

     TRANSATLANTIC SECURITY CHALLENGES: CENTRAL AND EASTERN EUROPE

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON EUROPEAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 10, 2014

                               __________

       Printed for the use of the Committee on Foreign Relations


      Available via the World Wide Web: http://www.gpo.gov/fdsys/




                               U.S. GOVERNMENT PRINTING OFFICE

      91-297 PDF                       WASHINGTON : 2014
      -----------------------------------------------------------------------
        For sale by the Superintendent of Documents, U.S. Government Printing
        Office, Internet: bookstore.gpo.gov. Phone: toll free (866) 512-1800;
               DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC,
                          Washington, DC 20402-0001


                COMMITTEE ON FOREIGN RELATIONS

             ROBERT MENENDEZ, New Jersey, Chairman
BARBARA BOXER, California            BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
JEANNE SHAHEEN, New Hampshire        MARCO RUBIO, Florida
CHRISTOPHER A. COONS, Delaware       RON JOHNSON, Wisconsin
RICHARD J. DURBIN, Illinois          JEFF FLAKE, Arizona
TOM UDALL, New Mexico                JOHN McCAIN, Arizona
CHRISTOPHER MURPHY, Connecticut      JOHN BARRASSO, Wyoming
TIM KAINE, Virginia                  RAND PAUL, Kentucky
EDWARD J. MARKEY, Massachusetts
               Daniel E. O'Brien, Staff Director
        Lester E. Munson III, Republican Staff Director

                         ------------

                SUBCOMMITTEE ON EUROPEAN AFFAIRS

           CHRISTOPHER MURPHY, Connecticut, Chairman

JEANNE SHAHEEN, New Hampshire        RON JOHNSON, Wisconsin
EDWARD J. MARKEY, Massachusetts      JAMES E. RISCH, Idaho
BENJAMIN L. CARDIN, Maryland         JEFF FLAKE, Arizona
RICHARD J. DURBIN, Illinois          JOHN BARRASSO, Wyoming

                              (ii)


                            C O N T E N T S

                              ----------
                                                                   Page

Brzezinski, Ian, resident senior fellow, Brent Scowcroft Center
  on International Security, Atlantic Council, Washington, DC....    26
    Prepared statement...........................................    28
Chollet, Hon. Derek, Assistant Secretary of Defense for
  International Security Affairs, U.S. Department of Defense,
  Washington, DC.................................................     7
    Prepared statement...........................................     9
Chow, Edward C., senior fellow, Energy and National Security
  Program, Center for Strategic and International Studies,
  Washington, DC.................................................    32
    Prepared statement...........................................    34
Johnson, Hon. Ron, U.S. Senator from Wisconsin, opening statement     2
Murphy, Hon. Christopher, U.S. Senator from Connecticut, opening
  statement......................................................     1
Nuland, Hon. Victoria, Assistant Secretary of State for European
  and Eurasian Affairs, U.S. Department of State, Washington, DC.     3
    Prepared statement...........................................     5
Smith, Julianne, director, Strategy and Statecraft Program,
  Center for a New American Security, Washington, DC.............    20
    Prepared statement...........................................    22

                                 (iii)



 
     TRANSATLANTIC SECURITY CHALLENGES: CENTRAL AND EASTERN EUROPE

                              ----------


                        THURSDAY, APRIL 10, 2014

                               U.S. Senate,
                  Subcommittee on European Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 3:16 p.m., in
room SD-419, Dirksen Senate Office Building, Hon. Christopher
Murphy (chairman of the subcommittee) presiding.
    Present: Senators Murphy, Cardin, and Johnson.

         OPENING STATEMENT OF HON. CHRISTOPHER MURPHY,
                 U.S. SENATOR FROM CONNECTICUT

    Senator Murphy. This hearing of the Senate Foreign
Relations Subcommittee on European Affairs will now come to
order. I would like to welcome everyone here today and explain
our situation just very briefly. We are in a quorum call to try
to figure out a path forward with respect to votes on the floor
of the Senate. Senator Johnson and I have managed to escape
that quorum call, but others of our colleagues are likely
caught on the floor. We may be joined by a few others, but we
decided to move forward with the hearing notwithstanding some
of the activity on the floor.
    This is a hearing today on transatlantic security
challenges in Central and Eastern Europe. I would like to
welcome our witnesses today on our first panel. We have two
people that are no strangers to this committee, Assistant
Secretary of State Victoria Nuland and Assistant Secretary of
Defense Derek Chollet. On the second panel we are going to hear
from Julianne Smith, Ian Brzezinski, and Edward Chow, all of
whom I will introduce later.
    Russia's invasion and illegal annexation of Crimea has
called into question one of the key assumptions and
underpinnings of 21st century transatlantic security strategy
that Russia no longer poses a security threat to the alliance,
and that the main challenges facing the allies emanate from
beyond the Euro-Atlantic region. The winding down of the
Afghanistan mission has led many to wonder if NATO, which has
been the cornerstone of transatlantic reliance, would cease to
be relevant. Instead, Russia's belligerent behavior may serve
to reinvigorate the alliance. As Ambassador Ivo Daalder
observed recently, ``NATO has stood the test of time. Mr. Putin
has just ensured that it will continue to do so.''
    The most immediate security challenge in Europe is the
presence of tens of thousands of troops amassed on Russia's
border with Ukraine. It is unclear whether President Putin
plans to invade Eastern Ukraine and seize control of the
country or simply use the troop presence and advance teams of
provocateurs to destabilize Ukraine until a friendly government
can be installed in Kiev.
    But recent events have crystallized many of the familiar
debates about transatlantic security challenges. In addition,
calls for increased defense spending, improved coordination,
and the need to prioritize territorial defense and energy
security are increasingly at the center of this conversation
when we talk about security and the vulnerabilities of Central
and Eastern Europe.
    We call this hearing today to get an update on the
administration's response to the crisis in Ukraine and to
discuss how the United States and our allies can deter further
Russian aggression, reassure our allies, and continue to help
countries in the region become strong, prosperous independent
democracies. The goal of our strategy must remain as always to
make Europe, whole, free, and at peace.
    Let me just very quickly suggest a few unequivocal steps
that we can take to increase security and maybe have our
panelists comment on them. First, as part of an increased NATO
response, I think the United States should consider increasing
troop levels in the region. Secretary Hagel has already said
that a third brigade is being considered, and it is time for
the United States to reevaluate our historically low U.S. force
strength in Europe. Even a small increase will send a clear
message to our friends and our adversaries. As this committee's
great Dr. Brzezinski once said, ``A trip wire has the same
effect as a fence. It makes for more stable, neighborly
relations.''
    Second, the United States and our European allies should
suspend arms sales to Russia. I have joined several of my
Senate colleagues in calling for the U.S. Government to end our
business relationship with Russia's state Arms Export Agency,
and I also hope that France will strongly reconsider the
delivery of missile-class warships that were designed
specifically for the type of invasion that just occurred on the
shores of Crimea.
    Third, now is the time for NATO to approve a membership
action plan for Georgia. If the fear of confrontation over
Georgia has divided our allies in the past, imagine the message
that it will send to Mr. Putin that not only will he fail to
achieve his objectives through threats and bullying, but that
it is actually counterproductive. I hope that the
administration will make a map for Georgia a priority at the
upcoming NATO summit in Wales.
    I will now turn to Senator Johnson for opening comments.

            OPENING STATEMENT OF HON. RON JOHNSON,
                  U.S. SENATOR FROM WISCONSIN

    Senator Johnson. Thank you, Mr. Chairman. And, of course,
when we were over in Ukraine we saw the very sobering situation
therein. And this hearing we are facing the reality, and I
think that is the primary thing we have to do here in the
United States is we have to face some pretty harsh realities.
And tough talk is fine, but Vladimir Putin really responds to
only one thing, action. And I am glad, Mr. Chairman, that you
are laying out some concrete actions we can take to change
Vladimir Putin's calculus.
    We need to deter Vladimir Putin, and we need to do that in
a very forthright and resolved way, and the sooner the better
because, Ms. Nuland, as you spoke earlier is that, you know,
obviously making sure that Ukraine is successful is the best
long-term strategy. We have a short-term problem, and we need
to change Vladimir Putin's calculus now so that he does not go
any further.
    So with that, just looking forward to the testimony and
appreciate you coming here to provide that testimony. Thank
you.
    Senator Murphy. Both our witnesses are well known to the
committee, so I will not trouble you to read you your own bios.
We will start with Secretary Nuland and then move onto
Secretary Chollet. Welcome again.

STATEMENT OF HON. VICTORIA NULAND, ASSISTANT SECRETARY OF STATE
 FOR EUROPEAN AND EURASIAN AFFAIRS, U.S. DEPARTMENT OF STATE,
                         WASHINGTON, DC

    Ms. Nuland. Thank you, Chairman Murphy, Ranking Member
Johnson. I am honored to be here today to testify on the
security challenges facing the transatlantic community in
Central and Eastern Europe. Before I do that, I just want to
take this opportunity to congratulate my friend and colleague,
Assistant Secretary Chollet, on the arrival of his newest
member of his family, Erin Chollet Hasta.
    For over 20 years the United States and our European allies
have worked to integrate Russia more closely into the Euro-
Atlantic community through our bilateral engagement and
organizations like the OSCE, the WTO, and the NATO-Russia
Council. But Russia's actions in Ukraine over the last months
are an affront to this effort and fundamentally change the
security landscape of Eastern and Central Europe. Today I
appreciate the opportunity to discuss the impact of Russia's
actions on Ukraine, our policy response to that action, and
other challenges in the region.
    Russia's occupation of Crimea, rubber stamped by an
illegitimate referendum conducted at the barrel of a gun, has
tarnished its credibility and diminished its international
standing in the eyes of Ukrainians and the world. This week's
violent occupation of government buildings in Kharkhiv,
Donetsk, and Luhansk deepen our concern.
    Today, Ukraine is a frontline state in the struggle for
freedom and all the principles that the transatlantic community
holds dear. The United States stands with Ukraine in its effort
to forge its own path forward to a more peaceful, free, and
unified future. And we are very grateful to the members of this
committee, including our chairman and our ranking member, for
their attention to Ukraine and their travel and support for the
people of Ukraine.
    Our policy approach includes four basic pillars. First, our
bilateral and multilateral support for Ukraine. Second, the
costs we are imposing on Russia for its aggressive actions.
Third, our efforts to de-escalate the crisis diplomatically.
And fourth, our unwavering commitment to the security of our
NATO allies who also live on
the front lines of this crisis. Let me address the first three
briefly, and Assistant Secretary Chollet will address the
fourth in his testimony.
    First, we support the Ukrainian people and the transitional
government in the courageous steps they are taking to restore
economic health, democratic choice, and internal stability and
security to the country. The Rada has passed landmark
anticorruption measures, deficit-reduction measures, and taken
very difficult steps to reform the energy sector. Many of these
will be painful for the Ukrainian people, but they are
absolutely necessary, and they open the way to an IMF package
of up to $18 billion in support.
    The United States own $1 billion loan guarantee will help
these reforms and will cushion some of the impact on the most
vulnerable members of Ukrainian society. And we thank the
Congress for its support of that loan guarantee. We are also
using more than $100 million in bilateral support to assist
Ukraine in strengthening anticorruption efforts, improving
transparency, and helping the Ukrainian people prepare for
free, fair elections on May 25.
    Second, Russia is paying a very high price already for its
actions, and that cost will go up if its pressure on Ukraine
does not abate. Sanctions that we have already put in place are
biting on the Russia economy, and we are now considering
further measures in response to Russia's continued pressure on
Ukraine. At the same time, we want to try to de-escalate the
crisis diplomatically, if it at all possible. After many weeks
of refusing to speak directly to Ukraine, the Russians have now
agreed to sit down next week in a quadrilateral format,
including Ukraine, the EU, and the United States, to discuss
de-escalation, de-mobilization, support for elections, and
constitutional reform. We will see how that session goes.
    We are also concerned about the pressure this crisis is
putting on Moldova, on Georgia, on Armenia, on Azerbaijan, and
on other neighbors of Ukraine. Moldova in particular has been
the victim of economic pressure from Russia, intense Russian-
sponsored propaganda against its choice to associate with the
EU, and renewed separatist efforts in Transnistria and
Gagauzia. So we are very grateful that you, Mr. Ranking Member,
are going to travel next week to, or this weekend, I think, to
Moldova. They will very much appreciate the support. As you
know, we have intensified United States political and economic
support to Moldova and to the other states of the region in
recent months, and this effort will be sustained.
    The Ukraine crisis highlights another deep and growing
challenge in the Euro-Atlantic space. The Maidon protestors had
many grievances, but one of the most galvanizing across Ukraine
was the pervasive corruption that has infused every aspect of
Ukraine society, its economy, and its politics. As Secretary
Kerry highlighted at the Munich Security Conference, we are
seeing a similar disturbing trend in too many parts of Central
and Eastern Europe and the Balkans now where the aspirations of
citizens are being trampled beneath corrupt oligarchic
interests who use their money and their influence to stifle
political opposition and dissent, to buy politicians and media
outlets, and to weaken judicial independence and the rights of
NGOs.
    We are also seeing a growing league of these oligarchs and
corrupt politicians who are working together, including across
national lines, to protect and help each other maintain that
influence, and to keep the cash flowing that fees their
preferred oligarchical system. Corruption of this kind does not
simply rot democracies from the inside, it also makes them
vulnerable to corrupting influences from the outside of the
country who may seek undue economic or political influence over
state policies and decisionmaking. In other words, in many
parts of Europe, fighting corruption needs to be a higher
national priority in order to protect and defend democracy and
protect and defend state sovereignty.
    As we look to shore up security, prosperity, and the values
that are so vital to our shared aspiration for a Europe whole,
free, and at peace, therefore, fighting corruption must be a
more central line of effort, and it will be for our Bureau
going forward. Similarly, the Ukraine crisis is a wake-up call
to accelerate other work we have been doing to promote a
stronger, more prosperous transatlantic community.
    As Assistant Secretary Chollet will discuss, the renewed
need for security vigilance along NATO's eastern border means
that our European allies must reverse the downward trend in
their defense budgets. And as we revitalize the transatlantic
security tie, we must also strengthen our economic ties, and
accelerate the growth and job creation on both sides of the
Atlantic by completing an ambitious trade and investment
partnership agreement.
    Finally, as you said, Mr. Chairman, we must do more
together as a transatlantic community to strengthen Europe's
energy independence and its internal energy market, including
by guaranteeing reverse flows of energy, ensuring greater
diversity of supply, and building interconnectors throughout
the continent. So this crisis has intensified our focus not
just on Central and Eastern Europe, but on a broad set of
transatlantic security challenges and opportunities on the road
to a Europe whole, free, and at peace.
    We are very grateful for the bipartisan and very active
support of this subcommittee and the whole committee in that
effort. I look forward to your questions.
    [The prepared statement of Ms. Nuland follows:]

       Prepared Statement of Assistant Secretary Victoria Nuland

    Chairman Murphy and Ranking Member Johnson--I am honored to be here
today to testify on the security challenges facing the transatlantic
community in Central and Eastern Europe. Let me begin by thanking you
for your leadership in the passage of the Support for the Sovereignty,
Integrity, Democracy and Economic Stability of Ukraine Act. This
legislation, which was supported by every member of this subcommittee,
will enable the United States to provide needed help to Ukraine as the
country undertakes its difficult transition.
    I would also like to thank you for your visits to the region. I
know that Chairman Murphy and Senator McCain have traveled to Kiev
twice in the past 5 months, and that Senator McCain--along with Ranking
Member Johnson, Senator Barrasso, and others--will travel to the Baltic
States and Moldova this weekend. This engagement demonstrates America's
continuing bipartisan support for a Europe whole, free, and at peace.
    For over 20 years, the United States and our European allies have
worked to integrate Russia more closely into the Euro-Atlantic
community through our bilateral engagement and organizations like the
OSCE, the WTO and the NATO-Russia Council. Russia's actions in Ukraine
are an affront to this effort and fundamentally change the security
landscape of Eastern and Central Europe. Today I appreciate the
opportunity to discuss the impact of Russia's actions on Ukraine, our
policy response to their actions and other challenges in the region.
    Russia's occupation of Crimea, rubberstamped by an illegitimate
referendum conducted at the barrel of a gun, has tarnished its
credibility and diminished its international standing in the eyes of
Ukrainians and the world. Reports of human rights abuses in Crimea
since the Russian occupation have shocked the conscience. Russia has
also attempted to intimidate Ukrainians by amassing more than 40
thousand troops and quick strike aircraft along the border, and with
trade blockades and gas price hikes of 80 percent.
    This week's violent occupation of government buildings in Kharkhiv,
Donetsk, and Luhansk deepen our concern. Far from a spontaneous set of
events, these incidents bear all the hallmarks of an orchestrated
campaign of incitement, separatism and sabotage of the Ukrainian state,
aided and abetted by the Russian security services.
    So today Ukraine is a frontline state in the struggle for freedom
and all the principles the transatantic community holds dear. The
United States stands with Ukraine in its efforts to forge its own path
forward to a more free, peaceful, and unified future. Our approach
includes four pillars: first, our bilateral and multilateral support
for Ukraine; second, the costs we are imposing on Russia for its
aggressive actions; third, our efforts to deescalate the crisis
diplomatically; and fourth, our unwavering commitment to the security
of our NATO allies who also live on the front lines of this crisis. Let
me address the first three briefly. Assistant Secretary Chollet will
address the fourth in his testimony.
    First, we support the Ukrainian people and the transitional
government in the courageous steps they are taking to restore economic
health, democratic choice, and internal stability and security to the
country. The Rada has passed landmark anticorruption measures, deficit
reduction measures and taken difficult steps to reform the energy
sector. These necessary reforms will require painful sacrifices from
all Ukrainians. But they also open the way to an IMF package of up to
$18 billion in support.
    The United States stands ready to help as the country addresses its
immense challenges. Our $1 billion loan guarantee, in conjunction with
IMF and EU assistance, will help implement these reforms and will
cushion some of impact on the most vulnerable in Ukrainian society.
    And we have approximately $92 million in FY 2013 State/USAID
funding and an anticipated $86 million in FY 2014 State/USAID funding
for assistance to Ukraine in areas such as strengthening anticorruption
efforts, revising public procurement legislation, introducing
agriculture and energy sector reforms, deepening privatization efforts,
improving the transparency and quality of higher education and helping
Ukraine prepare for free, fair elections on May 25.
    We are also working with the international community to push back
against Russian propaganda, lies and efforts to destabilize Ukraine's
regions. The OSCE has already deployed more than 120 monitors in 10
locations throughout Ukraine as part of a special monitoring mission
and the mandate allows the mission to grow to 500. The OSCE Office for
Democratic Institutions and Human Rights will also play an essential
role by sending 1,000 observers for the Presidential election, one of
its biggest missions ever.
    Second, Russia is already paying a high price for its actions, and
that cost will go up if its pressure on Ukraine does not abate. Across
the board, Russia has found itself isolated. The United States along
with all other G7 members declined to attend the Sochi G8 summit and
suspended participation in G8 activities. Instead, the G7 will meet in
Brussels. On March 27, the United States and 99 other countries in the
U.N. General Assembly reaffirmed the unity and territorial integrity of
Ukraine within its internationally recognized borders. Only 11 voted
against. Along with our allies, we have suspended practical cooperation
between NATO and Russia. We have suspended most bilateral economic and
military cooperation and much of the work of the U.S.-Russia Bilateral
Presidential Commission. The President signed two Executive orders
authorizing sanctions against those responsible, and finding that the
actions and policies of the Russian government undermine democratic
process and institutions in Ukraine; threaten its peace, security,
stability, sovereignty, and territorial integrity; and contribute to
the misappropriation of its assets. These sanctions have been carefully
coordinated with the EU and other global partners. And today we are
considering further measures in response to Russia's continued pressure
on Ukraine.
    And the financial markets are reacting. The ruble has fallen.
Capital flight from Russia is at a high not seen in years. And Russia
has been downgraded by major credit rating agencies on account of its
actions.
    These costs will only increase if Russia does not change course.
    At the same time, we want to try to de-escalate the crisis.
Secretary Kerry has met three times with Russian Foreign Minister
Lavrov in recent weeks, with the support of the Ukrainian Government at
a time when Russia would not meet directly with Ukraine. Earlier this
week, Russia agreed to sit down next week with Ukraine, the EU, and
United States to discuss de-escalation, demobilization, support for
elections and constitutional reform. Between now and then, we have made
it clear that Russia needs to take concrete steps to disavow separatist
actions in Eastern Ukraine, pull back its forces outside the country,
and demonstrate that they are prepared to come to these discussions
with the goal of de-escalating the conflict.
    So Russia has a choice--to work with the international community to
help build an independent Ukraine that can meet the hopes and
aspirations of all Ukrainians, or Russia can face greater isolation and
economic cost.
    We are also concerned about the pressure this crisis is putting on
Moldova, Georgia, Armenia, Azerbaijan, and other neighbors of Ukraine.
Moldova in particular has been the victim of economic pressure from
Russia, intense Russia-sponsored propaganda against its choice to
associate with the EU and renewed separatist efforts in Transnistria
and Gagauzia. As you know, we have intensified United States political
and economic support to Moldova, and other states of the region in
recent months and this effort will be sustained.
    The Ukraine crisis highlights another deep and growing challenge in
the Euro-Atlantic space. The Maidan protestors had many grievances. But
one of the most galvanizing across Ukraine was the pervasive corruption
that has infused every aspect of Ukraine's politics, economy, and
social fabric for too long. And as Secretary Kerry highlighted at the
Munich Security Conference, we are seeing a similar disturbing trend in
too many parts of Central and Eastern Europe and the Balkans now
``where the aspirations of citizens are . . . being trampled beneath
corrupt, oligarchic interests'' who ``use their money and influence to
stifle political opposition and dissent, to buy politicians and media
outlets, weaken judicial independence and the rights on NGOs.''
    We are also seeing a growing league of oligarchs and corrupt
politicians work together, including across national lines, to protect
and help each other maintain that influence, and keep the cash flowing
that feeds their preferred system. Corruption of this kind doesn't just
rot democracies from the inside, it also makes them vulnerable to
corrupting influences outside country who seek undue economic and
political influence over state policies and decisionmaking. In other
words, in many parts of Europe, fighting corruption needs to be a
higher national priority in order to protect and defend democracy and
state sovereignty.
    As we look to shore up the security, prosperity, and values that
are vital to our shared aspiration for a Europe whole, free, and at
peace, therefore, fighting corruption must be a more central line of
effort. Over the coming year, you will see our focus on this intensify
in the work we do across the Balkans, and Central and Eastern Europe,
in close collaboration with the with EU, to help these countries
promote clean, accountable government, a lively and free civil society,
and media independence and to help governments and citizens expose and
root out corruption wherever it hides.
    Similarly, the Ukraine crisis is a wake-up call to accelerate other
work we have been doing to promote a stronger, more prosperous
transatlantic community. As Assistant Secretary Chollet will discuss,
the renewed need for security vigilance along NATO's Eastern border
means our European allies must reverse the downward trend of shrinking
defense budgets.
    And even as we revitalize our transatlantic security ties, we must
also strengthen our economic ties and accelerate the growth and job
creation on both sides of the Atlantic by completing an ambitious
Trans-Atlantic Trade and Investment Partnership agreement. The work
that Eurozone countries are doing to strengthen the banking system and
institute other reforms will also give investors confidence.
    Finally, we must do more together as a transatlantic community to
strengthen Europe's energy independence and internal market including
guaranteeing reverse flow capabilities; ensuring greater diversity of
supply; enhancing storage capacity and developing a deeper network of
import terminals and interconnectors throughout the continent.
    So this crisis has intensified our focus not just on Central and
Eastern Europe but on a broad set of transatlantic security
challenges--and opportunities--on the road to a Europe whole, free, and
at peace.
    We are grateful for the bipartisan and very active support of this
subcommittee in that effort. I look forward to your questions.

    Senator Murphy. Thank you. Secretary Chollet.

STATEMENT OF HON. DEREK CHOLLET, ASSISTANT SECRETARY OF DEFENSE
FOR INTERNATIONAL SECURITY AFFAIRS, U.S. DEPARTMENT OF DEFENSE,
                         WASHINGTON, DC

    Mr. Chollet. Thank you, Mr. Chairman and Ranking Member
Johnson, for having me here today to discuss the transatlantic
security challenges we face in Central and Eastern Europe, and
how we are working to strengthen our allies there.
    After Russia's illegal actions in Crimea, the United States
took prompt steps to reassure our regional partners. First, we
augmented NATO's peacetime Baltic air policing mission by
sending additional fighter aircraft. Second, we deployed
aircraft and personnel to Poland to supplement the U.S.-Poland
Aviation Detachment, or AVDET. Third, we extended the USS
Truxtun stay in the Black Sea to conduct exercises with Romania
and Bulgaria. And fourth, we will deploy another ship next
week, the USS Donald Cook, to the Black Sea soon to build
interoperability.
    NATO has dispatched AWACS platforms to fly orbits over
Poland and Romania, and together with our allies, the United
States wants to ensure a continuous augmented presence along
NATO's borders at least through the end of the year in the air,
on the ground, and at sea.
    In addition to reassuring our allies, we have taken prompt
action to support our NATO partner, Ukraine. The Department of
Defense is working with Ukraine to review, prioritize, and
grant its defense assistance request for materials and
supplies. The first round of this process was completed last
week with the delivery of 300,000 MREs to support Ukrainian
forces who have been in the field and in need of resupply. The
Ukrainians asked for this urgent assistance, and we worked hard
to accommodate this request promptly.
    The United States has also maintained senior level
dialogues with Ukrainian counterparts throughout this crisis.
Just last week, we had a senior DOD team make up of civilians
and military officers in Kiev for defense talks, and this
morning Secretary Hagel talked with his Ukrainian counterpart
by phone. The administration is also exploring ways to support
and reassure other important partners who feel threatened by
Russia's actions, including Georgia and Moldova.
    Mr. Chairman, Russia's illegal military action against
Ukraine challenges our vision of a Europe whole, free, and at
peace. And as NATO Secretary General Rasmussen said during his
recent visit to Washington, ``This is the greatest threat to
European security and stability since the end of the cold
war.''
    NATO, of course, has played a critical role. President
Obama reaffirmed during his recent trip to Europe that our
commitment to NATO is the most important element of U.S.
national security as well as European security. And this
alliance, which celebrated its 65th anniversary last week, is
the organizing framework for allies to work together to manage
crises. It provides an integrated military structure to support
alliance political decisions to take action, and it represents
our common values. Whatever other missions NATO allies agree
on, collective defense, the Article 5 commitment, remains the
essential glue that holds the alliance together.
    Keeping NATO strong is critical to ensuring the alliance is
prepared to meet the nearly continuous crises it has responded
to over the past two decades. Russia's incursion into Ukraine
underscores this point, and it comes at a critical time when
allies are preparing for the NATO summit this September in
Wales.
    At this summit, allies will have to balance multiple
competing issues and priorities. First, we must transition the
alliance from its combat mission in Afghanistan, NATO's largest
and most challenging operation ever, to the training, advice,
and assist mission. Second, we must strengthen the relationship
between NATO and its most capable partners who have contributed
to alliance efforts in places from Libya to Afghanistan. And
third, and perhaps most important, we must reenergize the
political will of our allies to invest in defense capabilities.
This will not only demonstrate NATO's unity and resolve, but it
will also allow the alliance to meet the challenges of today
and tomorrow.
    Now, this goal is complicated by the evolving threat
picture and the European economy crisis that has forced too
many allies to cut spending, including defense investment and
force structure. But the Ukraine crisis serves as a clear proof
point for why we all need NATO allies to step up.
    So, Mr. Chairman, Ranking Member Johnson, and members of
this committee, Russia's actions in the Ukraine only reminds us
of the importance of the transatlantic alliance and the
benefits that comes from many years of investment to ensure
that this remains strong. Now, this investment spans across
administrations of both parties, and many years of bipartisan
support from Congress has been indispensable.
    Simply put, if NATO did not exist, we would have to invent
it. So as we head toward the NATO summit this fall, we look
forward to working with this committee to ensure that we are
doing everything we can to strengthen the transatlantic
partnership.
    Thank you, and I look forward to your questions.
    [The prepared statement of Mr. Chollet follows:]

        Prepared Statement of Assistant Secretary Derek Chollet

    Chairman Murphy, Ranking Member Johnson, and members of the
committee, thank you for inviting me here today to discuss the
transatlantic security challenges we face in Central and Eastern Europe
as a result of Russian actions in Ukraine. As you know, we in the
Department of Defense have been preparing for this year's NATO summit,
which the United Kingdom will host in Wales in September 2014. Given
the Russian Federation's illegal actions in Crimea, our focus has
shifted to the immediate question of how this crisis will reshape the
transatlantic alliance, the upcoming summit and, more broadly speaking,
NATO as a whole. My remarks today will have a two-fold focus: United
States policy and actions in the short term to reassure allies and
dissuade further Russian illegal use of force, and long-term
implications of the recent events on our bilateral European
relationships and within NATO.
                           reassuring allies
    After Russia's illegal actions in Crimea, the United States took
prompt steps to provide reassurance to NATO allies and partners in
Central and Eastern Europe. We augmented NATO's peacetime Baltic Air
Policing mission by deploying 6 additional F-15s. We deployed 12 F-16s
and approximately 200 support personnel to Lask, Poland, to supplement
the U.S.-Poland Aviation Detachment (AVDET) training rotation. We
extended the USS Truxtun's stay in the Black Sea through March 21 to
conduct exercises with Romanian and Bulgarian naval forces, and have
just ordered the USS Donald Cook from its new homeport in Rota, Spain,
to the Black Sea to further build interoperability with allies and
partners in the region.
    As emphasized by President Obama in Brussels on March 26 and
reinforced by Secretary of State Kerry at the April 1-2 NATO Foreign
Ministerial, the United States wants to ensure a continuous, augmented
presence along NATO's borders at least through the end of the year that
draws on the different capabilities of NATO in the air, on the ground,
and at sea to reassure our allies and demonstrate our commitment to
European security. We are also assessing and updating NATO plans, and
remain prepared to meet our Article 5 commitment to our NATO allies.
    In addition to reassuring allies, we are also taking action to
reassure Ukraine of the U.S. commitment to our partnership. On March
14, at Ukraine's request, the United States conducted an Open Skies
observation mission over Ukraine territory. We are planning to send
officials to Kiev to help plan a humanitarian assistance Command Post
Exercise (CPX). The Department of Defense in coordination with the
Department of State is working with Ukraine to review and prioritize
its defense assistance requests for nonlethal materials and supplies.
The first round of this process was completed last week with the
delivery of 300,000 Meals Ready-to-Eat to Ukraine.
    Last week, senior defense officials from the Office of the
Secretary of Defense and U.S. European Command traveled to Kiev for
Bilateral Defense Consultations with their Ukrainian counterparts.
Although part of the discussions addressed Crimea and the buildup of
Russian forces at the border, the majority of the discussion was spent
on mid- and long-term bilateral defense cooperation. The U.S.
Government is working with the Ukrainian Ministry of Defense to review
the use of Foreign Military Financing (FMF) and International Military
and Education and Training (IMET) funds based on Ukraine's new security
situation, and reevaluating our mutual goals for defense institution
building and professional military education in Ukraine.
    Russia's actions have also increased the sense of direct threat to
our other nonallied partners in Eastern Europe and the Caucasus,
particularly Moldova and Georgia. The administration is already
exploring ways to support these important partners. The U.S. Government
has tools at its disposal to contribute to this support effort,
including security assistance resources, senior leader engagement, and
defense cooperation activities. Notably, senior DOD and State officials
visited Moldova last week, to review with Defense Ministry officials
our continuing defense cooperation, and an interagency delegation plans
to visit Georgia later this month.
           maintaining nato as the transatlantic cornerstone
    Mr. Chairman, Russia's illegal military action against Ukraine
challenges our vision of a Europe whole, free, and at peace. It changes
Europe's security landscape, and in doing so reinforces the importance
of our bilateral defense relationships with European partners and
within NATO.
    NATO has a critical role in regional security: it serves as the
organizing framework to ensure that we have allies willing and able to
fight alongside us in conflict; provides an integrated military
structure to support alliance political decisions to take action; and
represents our common values of democracy, individual liberty, and rule
of law. NATO has evolved since the cold war to have three core
missions: deterrence and collective defense; crisis management; and
cooperative security. Collective defense has always been the most
fundamental purpose of the alliance and is the essential glue that
holds the alliance together, even during non-Article 5 operations in
areas important to transatlantic security such as the Balkans and
Libya. After more than a decade of out-of-area operations in
Afghanistan and elsewhere, NATO will need to balance its collective
security and crisis response capabilities to place more emphasis on
high-end deterrence and defense while making its forces more deployable
and sustainable.
    Keeping NATO strong both politically and militarily is critical to
ensure NATO is prepared for the nearly continuous crises it has
responded to over the past 20 years, and the enduring challenges
outlined at the 2012 Chicago summit: ballistic missile proliferation,
cyber threats, terrorism, weapons of mass destruction, and instability
from North Africa, the Middle East, and Eastern Europe. Ensuring
alliance preparedness is complicated by the evolving threat picture,
including Russia's activities, and the European economic crisis that is
compelling allies to cut government spending, including defense
investment and force structure.
    While the United States must be ready to meet these emerging
threats, we would prefer to meet these challenges together with allies
and partners. Allies continue to look to the United States to lead the
way in keeping NATO strong, capable, and credible, and President Obama
has been clear on the importance of the transatlantic alliance, stating
that ``our commitment to NATO is the most important element of U.S.
national security, as well as European security.''
    The September 2014 summit will occur 3 months before the transition
of the NATO military mission in Afghanistan, the alliance's largest and
most challenging operation in its 65 year history. The themes expected
for the Wales summit include Afghanistan; the future of NATO
(capabilities, training, and partnerships); and the transatlantic bond.
A main summit deliverable for the United States is a successful
transition from a combat mission to a train, advise, and assist mission
in Afghanistan. More broadly, the United States has focused on these
priorities:

  <bullet> Making NATO the transatlantic core of a global security
        community by institutionalizing and expanding NATO's capability
        to build defense capacity;
  <bullet> Deepening the relationship between NATO and its most capable
        partners; and
  <bullet> Reaffirming the allies' commitment to increase defense
        spending and better share the burden of defense.

    Mr. Chairman, Senator Johnson, and members of the committee,
Russia's actions in Ukraine have required us to revisit the importance
of the transatlantic alliance. The summit in Wales is an opportunity to
carry forward the critical work our alliance is conducting. In Wales,
we will underscore NATO's accomplishments in Afghanistan, Libya, and
the Balkans--successes delivered despite financial crisis. But as we
confront current challenges, most starkly demonstrated by Russia's
actions, we must also invest in the future. NATO relies on individual
allies for the bulk of the capabilities needed for future operations.
We must find a way to ensure that NATO will be able to maintain
critical capabilities in this period of austerity. We can ensure the
greatness of this alliance into the next decade in spite of fiscal and
security challenges, but we must invest the extra effort to work
collectively and to support those institutions that facilitate our
cooperation.

    Senator Murphy. Thank you to you both. I am going to start
with you, Secretary Chollet, and frankly just run through three
questions to ask you to respond to the three points that I made
at the end of my opening statement, the first of which was a
suggestion that now is the time to mount a serious defense in
Congress as to why we need serious troop presence in Europe. I
voted on a number of amendments when I was a Member of the
House to effectively hollow out our remaining force in Europe,
and of course at the time that made a lot of sense to people.
Today obviously circumstances have changed.
    So as you look at the troop numbers deployed throughout
Europe over the course of the decade, understanding that
sequestration is still a reality, what are DOD's thoughts?
    Mr. Chollet. Mr. Chairman, as you noted in your opening
statement, Secretary Hagel said a few days ago that what we are
looking at is our troop presence in Europe. It has gone down
significantly, as you know, over the last two decades. We have
got about 57,000 or so troops permanently stationed in Europe.
    And General Breedlove, the SACEUR and EUCOM commander, was
tasked just last week to come up with some further reassurance
steps we may take with our European partners to help reassure
our Central and European allies that this would not be just
unilateral U.S. steps, but steps that we would take as members
of the NATO alliance. And he will be reporting on some of that
planning next week, and we will be working through then the
NATO alliance.
    So whereas I do not foresee major changes in our permanent
footprint in Europe, I think that what we are trying to explore
are ways that we can leverage some of these rotational
deployments that we have undertaken, for example, the Poland
Aviation Detachment, which is a relatively modest investment,
and it is a very small permanent footprint, but it is very
significant for our Polish partners transitioning through F-16s
or C-130s to help with their training.
    And ways we can augment and build on that, I think, is a
way that we can have a forward presence, work closely with our
partners, and help build their capabilities. But it will also,
very importantly, be efficient in these austere budget times.
    Senator Murphy. Poland has requested for two NATO brigades.
What is the Department of Defense's position on that request?
    Mr. Chollet. So that is something that General Breedlove is
working through, and so we will wait his assessment.
    Senator Murphy. The second point that I initially made was
regarding military sales with Russia. You know, it is difficult
to understand how the French could continue to sell ships to
Russia that are identical to the ones that were used in the
illegal invasion and occupation of Crimea. Do we think that our
European allies are serious about ending military relationships
or curtailing military relationships with Russia in the wake of
this crisis?
    Mr. Chollet. Well, Senator, it is something we have very
frank conversations with our European colleagues about. You
mentioned also suspending arms sales to Russia overall and
sectorial sanctions, which the President has signed an
Executive order giving himself the authority to do. Those are
the sorts of things we would consider. We have not done that
yet, but we have the authority to do so. And the Department of
Defense, the Department of State across our government have had
very frank conversations, again, with our French colleagues, in
particular, about the way forward and their relationship with
Russia.
    Senator Murphy. I will ask this one first to you, Secretary
Chollet, but then toss it to Secretary Nuland as well, and that
is to ask for a little bit more color on what you believe to be
a successful Wales summit. I think you actually laid out three
principles. But let me ask you specifically with respect to the
question of enlargement.
    I understand the position that Georgia is in. I know that
they have some serious steps still to be taken before they are
a candidate for full admission into NATO. But a membership
action plan can have lots of steps and caveats and hoops to
jump through. It would seem to be a very strong signal to both
Russia and to our allies that we are serious about keeping the
open door policy in NATO if we were to give a MAP to Georgia. I
know there are other countries that are interested in getting
that status at Wales, but if you could both comment perhaps
generally on the issue of enlargement and then specifically to
Georgia.
    Mr. Chollet. So, Senator, I will take the first answer, and
then turn it over to Victoria. The door remains open. It is
something we strongly support. And in the specific case of
Georgia, we very much support Georgia's Euro-Atlantic
orientation and ambitions. Georgia, from a DOD perspective,
U.S. Government as a whole perspective, Georgia is a terrific
partner. They were in the fight with us in Afghanistan without
caveats, taking risks. They have committed to remain with us
post-2014 in Afghanistan, and so they are a very strong
partner.
    We, the United States, are supportive of the membership
action plan, and we have expressed that. But as you know very
well, this is an alliance decision. It is not a decision the
United States will make alone. So we work closely with our
Georgian partners through this process, and it something that
clearly will be a subject of conversation in the months ahead
as we lead up to the Wales summit.
    Senator Murphy. Secretary Nuland.
    Ms. Nuland. Well, as ever, Derek has articulated
beautifully. Just to say that the Georgians are well aware that
they do not have consensus in the alliance, and that they have
work to do to convince particularly some of our Western
European allies of their worthiness for the membership action
plan. We have been supporting them as they make this case
directly to individual allies.
    One thing that happens very soon for Georgia is it is on
track to sign its association agreement with the European
Union, which will deepen its relationship with many of these
same countries. So we are hopeful that that will have a
positive impact on how they assess its worthiness from that.
    Senator Murphy. I am going to stay outside Ukraine and
maybe use a quick second round to talk about Ukraine. Secretary
Nuland, you were just in Moldova, and I know that Senator
Johnson is going to be there, so maybe I am preempting a
question from him. But as we try to perhaps learn from the
things that we could have done or that the alliance could have
done in Ukraine in the months and years leading up to this
crisis, which I am not suggesting anyone could have foreseen,
what do you think are the most important steps to strengthen
the transatlantic alliance with Moldova to
send the right message to Russia and to perhaps prepare them
for the potential of some kind of offensive action from Russia
and Transnistria?
    Ms. Nuland. Well, thank you, Senator. As you know, we have
intensified our collaboration and cooperation with Moldova.
Secretary Kerry was there in December. As you said, I was there
again a week ago Sunday.
    Our primary effort with Moldova has been to support their
preparations for an association agreement signing with the EU
and the deep and comprehensive free trade agreement, because
both of these will strengthen their trade, and travel, and
links to Europe, and give them more options than simply the
Russian market. We are also working intensively with them on
energy security and alternative sources. We are investing with
the European Union in interconnectors with Romania.
    We are also helping them diversify their trade market. They
are trying to import some of their spectacular wine, which I
hope will sample, Senator Johnson, when you are there, into the
United States. And we have linked them up with a number of key
U.S. distributors. We are also helping--they have a Millennium
Challenge Compact, as you know, which supports bringing
agriculture to market, road and water support.
    So we are doing all those things, but also supporting their
path to elections as well. In the fall, a very important set of
elections for them. So it is a key moment.
    We are also trying to help them. One of the things that was
somewhat distressing on my last trip was whereas there was very
strong support within Moldova for the association agreement and
for tighter links with Europe, the Russian propaganda effort
has been particularly virulent across the country, but
especially in the Russian-speaking areas. And the Moldovan
Government and the EU frankly have not done a strong enough job
of explaining the benefits, what it is going to feel like when
citizens across the country in just a few months can have visa-
free travel to Europe, can have tariff-free export for the
goods, including the goods of many of these factories in
Transnistria. So this is a job that needs more attention, and
we are going to put some more effort into it ourselves.
    Senator Murphy. Well, I appreciate that answer. I will turn
it over to Senator Johnson, but I hope that our friends in
Brussels heard your answer to that last question. There is
nothing untoward about advertising yourself. And we know that
the Russians do not play by the same rules that we do. But the
fact is that in Moldova today, as you maintain, there is a
battle for the hearts and minds of the people there as to
whether they are going to orient toward Europe or back toward
Russia. And the fact is that the EU is not doing a good enough
job in Moldova, nor did they do a good enough job in parts of
Ukraine explaining what the true benefits of that alliance are,
while the entire time the Russians are investing all sorts of
clean and dirty money in an effort to tell a very different
story.
    There is a propaganda war being fought. There is only one
side right now that is truly at a high level fighting it. And
we can certainly be partners in that, but ultimately this is
not a matter of the United States convincing people in Moldova
whether they should or should not join the European Union. It
is really up to the European Union.
    Senator Johnson.
    Senator Johnson. Thank you, Mr. Chairman. Let me pick up
right there in terms of the propaganda war. I agree it is
basically one-sided, so let me go to you, Secretary Nuland. Are
we doing anything to provide the alternate view and try and
provide information now into Moldova, but also into Ukraine and
the other Baltic States?
    Ms. Nuland. Thanks for that, Senator. This has been a major
line of effort led by Secretary Kerry, but very much supported
by the President as well, over the last 2 months to--you know,
one cannot match the kind of money and effort in a closed
society that Russia is putting into this. But we can certainly
help our friends and partners debunk lies, get the straight
story out.
    So we have redirected a great amount of public diplomacy
funds to mounting our own truth-telling campaign, which we are
pushing out in Ukrainian, in Russian, in all of the European
languages, but also in English across the United States and
across allied territory.
    We have a number of products that we have mounted--the
United for Ukraine campaign on Twitter. If you are not linked
up to that, please link up. That was started at the State
Department and now has many thousands of users and repeat
tweeters. We have a product called the Daily Playbook where
twice, three times a week, sometimes daily we put out all of
the positive news about what is happening in Ukraine, and we
also debunk falsehoods from the Russian Federation, including
this most recent one where they accused a United States company
of having mercenaries across Ukraine. And when we called the
company, they made absolutely clear that no such thing was
true, and this was something that was put out on the Foreign
Ministry Web site. So this kind of thing.
    So we are doing a lot. We have put an additional $3.3
million into support for the Ukrainian Government itself, and I
said, we are going to redirect some money to Moldova as well.
    Senator Johnson. What about broadcast medium--TV, radio? It
came to our attention there was apparently a TV station with an
uplink that could have broadcast into Russia that was for sale
that could have been purchased. Is there any effort--any
expenditures being made to widen our ability to broadcast?
    Ms. Nuland. Well, we are supporting Ukrainian broadcasting
companies that are broadcasting in both Russian and Ukrainian.
We are also supporting the media center that the transitional
government has set up to help them exploit available
opportunities for broadcasting. We have RFERL, which is very
active in this space in all of its languages. We have not
looked into buying TV ourselves. I am not sure that is the best
use of resources. Rather we are trying to partner with folks in
Ukraine and in Europe who are active in this space.
    Senator Johnson. Okay. Secretary Chollet, first of all,
congratulations on the new addition to your family. You
mentioned that Secretary Hagel had talked to defense officials
in Ukraine. Can you tell me what that conversation was about?
    Mr. Chollet. Sir, he has had many conversations over the
last several months with his Ukrainian counterparts. I should
stress ``counterparts'' because there has been--I think this is
the fourth defense minister he has talked to in the last
several months. And this is mainly to ensure that we have at
the highest level a channel of communication throughout this
crisis and so we can hear from them directly about their needs
and about ways that we may be able to help then.
    Senator Johnson. Are they specifying needs?
    Mr. Chollet. Yes and no. I mean, the Ukrainian military was
not an extraordinarily capable military before this crisis, and
it has been, as I mentioned in my opening statement, been in
the field, deployed, and been under quite significant hardship
over the last several weeks given Russia's behavior. So the
most urgent needs that they have identified to us have been in
the more nonlethal humanitarian spaces, the MREs and medical
supplies in particular. So we are working to try to accommodate
those requests.
    Senator Johnson. When Prime Minister Yatsenyuk was here, I
know he made a request for some small arms and ammunition,
which was apparently turned down. Part of the rationale was we
certainly did not want to do anything that could provoke
Vladimir Putin. Now, this was before the vote. This was before
the annexation. Guess he did not need any provocation. He just
did it anyway.
    Are we rethinking our willingness to help Ukraine
militarily from the standpoint of supplying them the types of
small arms and ammunition they requested back then?
    Mr. Chollet. Well, Senator, we are constantly in a dialogue
with them about what they may need. This team that was in Kiev
last week were discussions that were already planned.
    Senator Johnson. That is great. Dialogue is great. Are we
rethinking whether or not we are going to provide them the type
of support they actually requested and they actually need if
Vladimir Putin moves further?
    Mr. Chollet. Yes, but the priority right now is--their own
prioritization that they presented to us is mainly nonlethal at
this point. But as we are looking out at this immediate crisis
that we are in and thinking of the medium and the long term,
which is what we talked about last week in Kiev, is as they are
seeking to further modernize their military, and they are
seeking to further professionalize their military--by the way,
efforts that we have tried to work very closely with them on in
the last several years, long before this crisis. And they still
have a long way to go on professionalization and modernization,
ways that we can be helpful.
    Senator Johnson. You mentioned that NATO is augmenting
their presence along the borders. What does ``augmentation''
mean? How many personnel are we talking about?
    Mr. Chollet. So we could get you the exact numbers of total
NATO personnel.
    I can tell you from a United States perspective, for
example, in Poland the aviation detachment and the upgrade by
adding some aircraft to that attachment, I think a couple
hundred folks have accompanied that. Similar with the Baltic
air policing mission and our augmenting of that effort, it is a
handful of folks. And part of what General Breedlove will be
coming back to NATO and briefing next week is his proposal for
the over the medium to the long term for the rest of this how
whether by air, land, and sea, NATO, the United States, and our
other 27 allies, can be postured differently, and particularly
in Central and Eastern Europe in response to the crisis.
    Senator Johnson. So currently our response to the Russian
troop buildup of tens of thousands--it is hard to say what the
exact number is--but tens of thousands of Russian troop buildup
along the eastern border of Ukraine is a couple of hundred and
dozens? Do you really think that is going to change Vladimir
Putin's calculation?
    Mr. Chollet. Well, sir, I think what is most likely to
change his calculation is what we have been seeking as a
government, not the Department of Defense, but mainly with our
colleagues at Treasury on sanctions and hitting the Russian
government where it really matters.
    Senator Johnson. Is it not true that Russian officials
mocked the sanctions?
    Mr. Chollet. Well, as Secretary Kerry said before this
committee a few days ago, initially there was some chatter and
mocking, but I think that these sanctions pinch. They hurt.
There is no doubt. And as the President made very clear when he
announced this latest round of sanctions, it is not the limit
of what we can do. There are further things we can do. But as
is clear, the further we go, the greater ramifications it could
also have on us.
    That said, we have made very clear to the Russian
Government that we stand by our Article 5 commitment to NATO
allies, that their behavior is unacceptable, and that we are
rethinking many things when it comes to our military posture in
Europe.
    Senator Johnson. Okay. Thank you.
    Senator Murphy. I am just going to take time for a short
second round here. I would just in general associate myself
with the remarks of Senator Johnson. I think we are beyond the
point of treading lightly. I think we are beyond the point of
worrying about provoking Russia. I think that they are going to
make decisions about the future course of events in and around
Ukraine based on their own security needs.
    And as one neighbor of Russia around the Black Sea came and
told Senator Johnson and me earlier this week, that our
response should be to do everything that Russia does not want
us to do. And while I have expressed skepticism about providing
small arms, I think a successful NATO summit with an extension
of a membership action plan to Georgia and continued ratcheting
up of sanctions is exactly that medicine.
    Two questions, one for you, Secretary Nuland. Can you just
give an update on the elections schedule for May 25? Maybe give
us a sense of--you know, I do not want you to be apocalyptic,
but what is Russia's capability to undermine these elections
when today they do not have a candidate that at least is
polling at any level that would suggest they are a true threat?
    So what do we worry about, and what are the things that we
and our Ukrainian allies can do to make sure that Ukrainians
get a choice, because if they have a free and fair election,
there is no way the next President and the next Cabinet of
Ukraine is going to give the time of day to Putin in the next
administration.
    Ms. Nuland. Well, thanks, Senator. First of all, as you may
have seen, there are more than 20 candidates registered for the
Presidential election on May 25 representing every single
available color of the political spectrum in Ukraine. So the
Ukrainian people will certainly have a very broad choice, and
the election is likely to throw to a runoff, which is a very,
very healthy thing.
    The media environment, the basic conditions for this
election at this moment, absent the security situation, are as
good as they have ever been in Ukraine with a very, very
supportive transitional national government, with a very
supportive Rada, with a vibrant public debate going on public
media and private media.
    The other thing is we have a very strong response from the
OSCE from ODIHR. They are planning to field more than a
thousand monitors across the country. The Ukrainians are also
making provisions for Crimeans to vote. They will not be able
to vote in Crimea because Russia will not allow it, but there
will be polling places for them.
    And as I understand it, I testified before the Helsinki
Commission yesterday, and we will have a big contingent as
well. We have an NDI and IRI contingent under Helsinki. So that
is a part of the answer to have eyes all over this process so
that it cannot be manipulated. But the number one concern we
have now is efforts to destabilize the eastern regions, other
parts of Ukraine, to create either a pretext for declaring it
too difficult to have elections, to create questions about it,
and/or for a larger Russian move into Ukraine to protect
citizens.
    So this is the real threat that these moves in Kharkhiv,
Donetsk, and Luhansk pose. The interesting thing is that none
of this has any kind of significant support among the
populations, including the populations of the east. There was
recent IRI polling and there is recent Ukrainian polling
indicating than less than 15 percent of those in the east want
to join Russia. They want to stay in a united Ukraine. They
want to have a choice of their future.
    There are candidates, as I said, across the spectrum for
people to vote for, including those who want a closer
relationship with Russia, but not to hive off pieces of Ukraine
or allow the kind of federalization that could cause the
country to fall apart. So I think you are going to see a very,
very vibrant debate, but the number one risk is the security
situation and this aggressive effort with an address back to
Moscow to destabilize.
    Senator Murphy. And, of course, the irony is the more
successful we are making sure that that election is free and
fair, the more worried we have to be about Russia's intentions
once they see the writing on the wall.
    One question for you, Secretary Chollet, back to United
States military support for Ukraine. It seems to me that one of
the logical programs that we could undertake, whether it is the
United States or with NATO, is a longer term project to rebuild
the strength of the Ukrainian Armed Forces. They were obviously
hollowed out under Yanukovych and probably even prior to that.
And separate and aside from the decisions that you make about
their immediate needs, what about a long-term commitment to
help them rebuild their military?
    Mr. Chollet. Senator, absolutely agree. That kind of long-
term thinking was what we had embarked upon long before this
crisis, and I think that this crisis provides an opportunity
for us to think anew about how we can continue the efforts we
had started, but really augment them further.
    Our military relationship with Ukraine, although important,
and they deployed with us in Afghanistan and elsewhere was
relatively modest. It is $4 million or so a year in FMF. So
part of these discussions that we were having in Kiev last week
was about the medium to long term and how we can address their
urgent needs, but more importantly perhaps over the long term
ensure that they continue on the modernization and
professionalization effort that we have helped with.
    Senator Murphy. I think the noisier we are about that
longer term commitment, the better.
    Senator Johnson.
    Senator Johnson. I have been concerned. I have been hearing
a term, ``Finlandization.'' I have heard things like ``redlines
around Ukraine.'' Is that something that our NATO partners or
that we--are we using those terms in any way, shape, or form?
    Ms. Nuland. Senator, we are not. That term has different
meanings to different people, but it generally implies a
constitutional neutrality of one kind of or another. As you
know, the transitional government in Ukraine, and you have
probably heard this from Prime Minister Yatsenyuk, has said
that they do not have any plans while they are in power to
change the ``nonbloc status of the country.'' But obviously it
is a matter for future leaders of Ukrain and the Ukrainian
people to decide how they might want to associate in the
future. It is not a decision that the United States or any
other country can make for Ukraine or for Ukrainians.
    Senator Johnson. So we are standing by the assurance that
we basically granted by being a signatory to the Budapest
memorandum to do everything we can to maintain the border
integrity of Ukraine.
    Ms. Nuland. Well, as you know, that was signed in 1994 as a
political assurance that we would all support and defend the
sovereignty and territorial integrity of Ukraine. It did not
have the status of a treaty commitment, and as such has been
brutally violated by the Russian Federation. Of course, our own
commitment remains solid, but Russia did not have any trouble
trampling on that.
    Senator, if I may, can I just go back to your point about
whether sanctions are biting? You know, it is easy is if you
are sitting in Moscow to mock them, but the numbers tell a
different story. More than $25 billion spent by the Russia
Federation over the last 5 to 6 weeks to prop up the ruble to
defend it. Some capital flight in the first quarter of 2014 out
of Russia, greater than capital flight throughout all of 2013,
which was a significant year for capital flight from Russia. A
great shrinking economy. It was already shrinking. It is
shrinking even more. Downgrading of Russia by the major rating
organizations. So this is pinching, but you are not wrong that
we have to maintain the pressure.
    Senator Johnson. Okay. Thank you very much.
    Senator Murphy. Thank you to both of our witnesses. We
really appreciate your time and our late start. You are
dismissed, and as you leave we will seat our second panel.
Thank you very much to both of our Secretaries.

[Pause.]

    Senator Murphy. Let me welcome our second panel with one
caveat. Senator Cardin is on his way and will be taking over
the chairmanship of this portion of the hearing in about 20
minutes or so. I unfortunately have another obligation, and we
are going to try to wrap this up as quickly as we can given
what is happening on the floor.
    But we are very excited to have our guests today. Julianne
Smith is a senior fellow and director of the Strategy and
Statecraft Program at the Center for a New American Security,
and a senior vice president at Beacon Global Strategies. She
previously served as the Deputy National Security Adviser to
Vice President Biden and the Principal Director for Europe and
NATO policy in the Office of the Secretary of Defense.
    Ian Brzezinski is a senior fellow with the Brent Scowcroft
Center on International Security at the Atlantic Council. He
brings more than two decades of experience in U.S. national
security, including serving as Deputy Assistant Secretary of
Defense for Europe and NATO policy.
    And Edward Chow is a senior fellow in the Energy and
National Security Program at the Center for Strategic and
International Studies. Before coming to CSIS, he spent 30 years
working in the energy industry, including 20 years with the
Chevron Corporation.
    Welcome to all of you. We will go in the order that I
introduced to you from Ms. Smith to Mr. Brzezinski to Mr. Chow.

STATEMENT OF JULIANNE SMITH, DIRECTOR, STRATEGY AND STATECRAFT
  PROGRAM, CENTER FOR A NEW AMERICAN SECURITY, WASHINGTON, DC

    Ms. Smith. Well, thank you very much, Chairman Murphy,
Ranking Member Johnson. Thank you for the opportunity to
testify today on transatlantic security challenges.
    As you well know, Russia's recent annexation of Crimea
obviously has raised a lot of thorny questions about the future
of transatlantic security. Europe and the United States, as you
heard earlier from Secretary Chollet and Secretary Nuland,
share three common objectives associated with this crisis. One
is obviously isolating Russia and ensuring that there are
additional costs imposed on the Russians. Two is reassuring our
allies in Central and Eastern Europe. And the third is
supporting the new interim government in Kiev.
    I am going to take the first two, and I want to start with
reassuring our allies in Central and Eastern Europe. You heard
earlier from Assistant Secretary Chollet about some of the
things that the United States was able to do in the early days
of the crisis from providing additional F-15s to the Baltic
States and F-16s to Poland to extending the stay of the USS
Truxtun, in the Black Sea to other plans that we have for the
region to reassure our skittish allies.
    Europe, Western European in particular, was slower to
respond to this crisis and to calls for reassurance from our
allies in Central and Eastern Europe. They have had a number of
concerns about unnecessarily provoking the Russians. They have
looked at public opinion data, which frankly does not support
initiatives that would reassure our friends in Central and
Eastern Europe. And some of them, frankly, lack the sheer
capability to do so.
    Now, some of that has changed. We had a NATO ministerial a
couple of weeks ago, and we saw a number of Western European
countries step forward and offer forms of support to Central
and Eastern Europe. And as you heard, General Breedlove will be
presenting some other options on Tuesday that I hope will be
supported not just by the United States, but by the alliance as
a whole.
    Moving forward, I think the challenge for Europe and the
United States is to keep the momentum going and get to a point
where we do not allow our policy differences to lead to policy
paralysis. We do not want to find ourselves in the situation
where we are breeding additional overconfidence on the part of
the Russians, or allowing the Russians to drive a wedge right
through the middle of NATO.
    And in my written testimony, which I have submitted for the
record today, I suggest three things that Europe and the United
States should be focused on. The first one is to present a
united front even when sometimes we cannot reach consensus. You
know better than I do that there are some cracks in the
transatlantic relationship on this issue. At times, we have
disagreed. In the early days of the crisis, we had some public
airing of our differences, particularly over sanctions, which I
think was not a wise move on both of our parts.
    I think as we disagree and we weigh the pros and cons of
additional initiatives moving forward, we have to ensure that
we keep what is actually at stake in the back of our minds and
remember that Crimea is not a bump in the road. This is not a
hiccup. This is not a short-term incident. What happened in
Crimea will have lasting implications for transatlantic
security and for the region as a whole. In my mind, we are not
going back to business as usual, and so it is important to keep
that in mind as we think about a long-term strategy that would
include economic, diplomatic, and military measures.
    The second thing, I think what we have to focus on as
allies is getting the NATO piece right. You heard from
Assistant Secretary Chollet and Assistant Secretary Nuland that
there is a NATO summit coming up, of course, in the fall. We
are going to need U.S. leadership to drive some of those
initiatives forward on some very difficult issues. You
mentioned, Chairman, NATO enlargement as one issue. You are
well aware of the differences inside the alliance on that
particular issue.
    But if we do not take on NATO enlargement, if we do not
take on cyber, if we do not take on missile defense, if we do
not take on some of these tough issues, I think NATO will
ultimately be unprepared to deal with what is coming at it in
the 21st century and beyond, not just with this crisis, but
with others.
    The Secretary General of NATO has been very optimistic in
recent days saying that Ukraine is a game changer and will
hopefully lead to increases in defense spending. I am not so
sure, but I would like to count on Washington's leadership to
drive that debate forward. And also managing the debate we have
had many times about Article 5 versus expeditionary operations.
    The last thing that I think Europe and the United States
need to focus on is making sure that they do not leave a gray
zone between NATO territory and Ukraine. We need to look at the
reassurance requirements not just in countries like Poland and
the Baltic States, but also Georgia and Moldova.
    In many ways, these countries need more assurance than
those that are already members of NATO and the EU, and so, we
will have to look at things like defense cooperation and
security cooperation. We are going to have to put everything on
the table to ensure that there is a united front between Europe
and the United States. It just cannot be the United States
alone.
    In terms of our efforts--Europe and European efforts--to
support the new team in Ukraine, we are trying to support the
elections as we talked about earlier. We are working to provide
them financial assistance so that their economy does not
collapse, and we are trying to address their security needs
simultaneously.
    I think we have done all right in the first two categories.
We are trying to ensure that they have the tools they need for
a free and fair election. We have provided billions of dollars
and promises of loan assistance, and all sorts of technical
expertise.
    But I think we have not done particularly well in
addressing the security concerns. I know you heard a moment ago
that DOD is looking at some of those requests, but we have had
the good fortune to date of relying on incredible restraint on
the part of the Ukrainian military. I do not think we can count
on that in the long term. We are not so sure how much longer we
will see such restraint, particularly given some of the
protests we have seen in eastern Ukraine.
    And so, I think moving forward, the United States is going
to have to ramp up its efforts to review those requests,
nonlethal and lethal, and determine if we can provide
additional intel-sharing, training, and look at things like
ammunition.
    To close, I just want to say I think Europe and the United
States deserve kudos and credit for the work that they have
done together in multiple categories of addressing different
aspects of this crisis. But what they have done to date should
really be seen as the opening act. I think we have to sustain
this momentum, make sure we have a long-term strategy, and make
sure that that strategy is paired with real resources and real
capabilities.
    We also have to think through the potential scenarios that
we might be facing in the future. What happens if Russia goes
into eastern Ukraine? What happens if the Russians try to
further destabilize Transnistria? Or what happens if those May
25 elections do not happen? We need to be having that kind of
conversation with our European allies now to prepare ourselves
for anything that might be coming down the road.
    Thank you very much, and I look forward to your questions.
    [The prepared statement of Ms. Smith follows:]

                  Prepared Statement of Julianne Smith

    Chairman Murphy, Ranking Member Johnson, and distinguished members
of the subcommittee, thank you for the opportunity to testify today on
the transatlantic security challenges in Central and Eastern Europe. I
appreciate the subcommittee's attention to this issue--one that I have
written about as a scholar and focused on closely while serving in the
Obama administration.
    Russia's recent annexation of Crimea raises a number of questions
about the future of transatlantic security. Europe and the United
States share three core objectives associated with this crisis all of
which require close transatlantic cooperation: isolating Russia and
halting further Russian aggression, reassuring allies in Central and
Eastern Europe and supporting the interim government in Kiev. I would
like to focus today on the last two tasks. Both sides of the Atlantic
deserve praise for their ongoing work in these areas but several
challenges lie ahead. It will be absolutely critical in the coming
weeks and months for the transatlantic partners to show continuing
resolve, enhance their efforts to date and ensure that they don't
provide President Putin with an opportunity to drive a wedge through
NATO or the transatlantic relationship more broadly.
      transatlantic efforts to reassure central and eastern europe
    The countries of Central and Eastern Europe have watched events in
Ukraine with considerable alarm. Given their proximity to Russia's
borders; their inability to counter a Russian military threat relying
solely on their own defense forces; past experience with various types
of Russian intimidation; and, in some cases, Russian minorities
numbering in the hundreds of thousands (which could potentially serve
as a pretext for Russian aggression), many of the countries in this
region are feeling increasingly vulnerable. Even NATO member states
that benefit from an Article 5 security guarantee and countries like
Poland that have made considerable progress in modernizing their own
defense forces over the last 20 years have made it clear in recent
weeks that they are seeking additional layers of reassurance from both
sides of the Atlantic.
    In the first few days following the Crimea crisis, the United
States undertook a number of steps to address the security concerns of
its NATO allies in Central and Eastern Europe. Those steps included
dispatching six F-15s to the Baltic States as part of the ongoing
Baltic Air Policing Mission, extending the USS Truxtun's stay in the
Black Sea and deploying 12 F-16s and 200 airmen to Poland. The United
States also plans to send F-16 fighter jets to Romania this month as
part of planned joint exercises, and a guided missile destroyer is
scheduled to arrive in the Black Sea today for training and exercises.
    In comparison to the United States, Western Europe was somewhat
slower to respond to reassurance requests stemming from Central and
Eastern Europe. Some countries like the United Kingdom and France
offered swift support and NATO agreed in mid-March to send two
surveillance planes to fly over Poland and Romania. But a number of
countries in Western Europe felt that NATO's security guarantee should
be sufficient and were hesitant to commit to do more either due to
resourcing constraints or concerns about unnecessarily provoking the
Russians. There are signs, however, that European reticence is
changing. NATO's recent ministerial in Brussels on April 1-2 succeeded
in garnering additional forms of support for Central and Eastern
Europe. At least eight countries pledged to provide assets to bolster
the NATO's eastern flank.\1\ NATO's supreme military commander, Gen.
Philip Breedlove, was tasked to look for additional ways to deploy or
reinforce land, sea and air forces in Eastern Europe, upgrade training
and military exercises and update contingency plans. In addition, NATO
foreign ministers discussed ways in which they might boost the
readiness of the NATO Response Force (NRF) consisting of 13,000 troops
available on short notice.
    CEE allies, while appreciative of these steps, continue to yearn
for tangible measures beyond reassurance especially in light of the
recent protests in eastern Ukraine, which by many accounts are being
orchestrated by Russia and could serve as a pretext for more Russian
aggression. Specifically, some countries such as Poland and the Baltic
States have made it clear that what they really want is a permanent
ground presence. At the NATO Ministerial in early April, Radek
Sikorski, the Polish Foreign Minister, asked NATO to station 10,000
troops on Polish territory as a demonstration of NATO's resolve to
defend its member states. That request went unanswered but raised one
of the toughest questions associated with reassuring NATO allies in
Central and Eastern Europe --will the alliance consider abandoning a
1997 pledge to Russia not to permanently station NATO troops in new
member states? \2\ That question has triggered a lively debate inside
the halls of NATO and across the capitals of NATO member states.
    While a number of European countries have condemned the Russian
annexation of Crimea in the harshest terms and called for punitive
measures, few Western European leaders have shown a willingness to date
to reverse the 1997 pledge not to station troops in Eastern Europe.
When he was asked at the NATO Ministerial about this issue, the Dutch
Foreign Minister, Frans Timmermanns, responded by stating, ``No, we
don't need any NATO troops on the border with Russia.'' \3\ That
sentiment has been repeated by officials in Berlin and other European
capitals.\4\ The rationale behind it is multifold. First and foremost,
a number of NATO members worry about the risks of escalating the
conflict with Russia at a time when they are pursuing diplomatic means
to solve the crisis. Second, publics in some NATO member states oppose
even less controversial reassurance measures in Central and Eastern
European. For example, in Germany, more than 60 percent of the
population opposes sending the country's air force to strengthen NATO's
eastern borders (which would not be inconsistent with the 1997
pledge).\5\ Finally, as they prepare to withdraw from over a decade of
conflict in Afghanistan, some NATO members simply lack the will to
deploy ground forces. Others just lack the actual capabilities to do
so. All that said, NATO should immediately determine if Russia has
already broken its own promises outlined in the NATO-Russia Founding
Act, thereby freeing us of the 1997 obligation and opening up the
option of stationing troops in Eastern Europe.
    While the United States has yet to respond formally to Poland's
request for ground troops, Secretary Hagel, during a meeting with Asian
defense ministers in Hawaii on April 3, indicated that the U.S. was
looking at the possibility of permanently stationing an additional U.S.
Army brigade in Europe. Considering that it was just a little more than
2 years ago when the Department of Defense withdrew from Europe two of
its four Army brigades and eliminated them from the force, doing so
would represent a substantial reversal in U.S. force posture. It is no
secret that the United States is facing genuine resource constraints
that have forced the administration to prioritize its core missions,
shrink the size of its armed forces and reduce its global presence. As
a result, any additional U.S. commitment in Eastern Europe will have to
be weighed against competing defense priorities. If permanently
stationing troops in Eastern Europe proves to be a bridge too far, the
United States should at least consider earmarking another U.S.-based
Brigade Combat Team (BCT) for rotation in Europe.
    The core challenge for the transatlantic partners will be to
prevent their differences on the ground forces request and other
related issues from leading to policy paralysis that would only boost
Putin's confidence and unnerve skittish NATO allies in Central and
Eastern Europe. Looking ahead, Europe and the United States should
focus on the following:

    Present a united front even when there isn't consensus. It is clear
that there are already cracks in transatlantic cooperation,
particularly in regard to reassuring allies in Central and Eastern
Europe. When that happens, it is important that the two sides of the
Atlantic avoid airing their differences in public (as they did on the
utility of sanctions during the first few days of the crisis), which
gives Moscow the satisfaction of feeling like it has the upper hand. As
Europe and the United States look at additional measures to pursue in
Central and Eastern Europe, in Ukraine or vis-a-vis Russia, they must
keep in mind what is at stake and what lessons other corners of the
world might draw from their perceived inaction or indecisiveness. The
Ukraine crisis is not a short-term hiccup in our relationship with
Russia but a wake-up call about the importance of transatlantic unity
and resolve in the long term. This crisis will require additional
measures using a wide variety of economic, diplomatic, and military
tools, which at times will test the transatlantic partners both
economically and politically (especially as they begin to look at ways
to reduce Europe's reliance on Russian oil and gas). Accepting and
committing to that reality is an important first step.
    Get the NATO piece right. NATO Secretary General Anders Fogh
Rasmussn has repeatedly stressed that the Ukraine crisis will serve as
a ``game changer'' for the alliance, one that will return it to its
core mission of collective defense. He has also expressed his hope that
the crisis will spur NATO members to spend more on defense after
decades of defense cuts that have hollowed out NATO capabilities. While
that optimistic vision has been welcomed in Washington and a handful of
other NATO member states particularly in Central and Eastern Europe,
much more work needs to be done to build consensus on the way ahead.
Not all members see Ukraine as a turning point. Not all members are
prepared to put collective defense above NATO's other focus on
expeditionary operations. Not all members feel compelled to develop new
reassurance and deterrence initiatives to ensure that Russia doesn't
get any ideas about moving toward NATO member states. That is
especially true in regard to the upcoming NATO summit in the United
Kingdom this September. That summit currently revolves around three
main baskets of work: the end of the alliance's combat mission in
Afghanistan, a new transatlantic compact and the future of NATO
partnerships. It is hard to imagine Ukraine not having a major impact
on the last two baskets. The question of course is how and to what
degree. Some members, again due to resource constraints or interest in
avoiding confrontation with the Russians, will no doubt opt for mere
symbolic gestures. But the United States, in tandem with the Secretary
General, will need to lead the effort to develop robust initiatives
that showcase NATO's resolve, innovation, and unity. That means taking
on the highly sensitive subjects of NATO enlargement, cyber security,
energy security and missile defense. The United States will also have
to take a leadership role in navigating what will no doubt be a
rigorous but dated debate over Article 5 missions vs. expeditionary
operations.
    Don't forget those countries in the region that are not NATO
members. Europe and the United States have largely focused reassurance
efforts on current NATO members and Ukraine. But they will need to keep
their eye on those countries that sit just outside of NATO territory--
countries like Georgia and Moldova that are in many ways more
vulnerable than their neighbors that are already in NATO and the EU.
Understandably, these countries are also seeking visible signs of
reassurance (preferably via military channels) as well as political and
economic assistance. Given that the collective weight of Europe and the
United States far surpasses anything that either side of the Atlantic
might do unilaterally, transatlantic coordination will be an
indispensible part of any European or American initiative in this
regard. A U.S. Assistant Secretary of State and a Deputy Assistant
Secretary of Defense recently traveled together to Moldova to review
U.S. defense cooperation. Europe should follow suit and work with
Washington to develop joint initiatives so that the two sides of the
Atlantic don't inadvertently leave a gray zone between NATO territory
and Ukraine.
                transatlantic efforts to support ukraine
    In addition to reassuring allies in Central and Eastern Europe,
Europe and the United States have sought ways to assist the interim
government of Ukraine, which faces three enormous tasks: prevent the
Ukrainian economy from collapsing, prepare for May elections and avoid
a military confrontation with Russia, particularly in eastern Ukraine,
which is looking increasingly unstable. While the two partners deserve
relatively high marks in the first two categories, little has been done
to assist in the last.
    Ukraine estimates that it will need upward of $35 billion in
foreign assistance over the next 2 years to avert default.\6\ To their
credit, both the European Union (EU) and the United States came forward
with pledges of assistance ($15 billion and $1 billion respectively)
shortly after the crisis began. The EU and Ukraine also recently signed
the political chapters of the Association Agreement, committing them to
closer political and economic cooperation. In late March the IMF
stepped forward with an agreement to provide $18 billion in loans over
the next 2 years. On top of all of this important financial assistance,
both sides of the Atlantic have sent, or will soon send, a number of
policy experts, high-ranking policymakers, and business delegations to
offer technical assistance and much-needed reassurance.
    As with their joint efforts to reassure the countries of Central
and Eastern Europe, the transatlantic partners will have to avoid a
situation where support drops off once Ukraine falls off the front
pages of the world's newspapers (assuming it actually does). Getting
Ukraine on the healthy path of stability and prosperity will takes
years, if not decades, of work and billions of dollars, a fact that
neither side of the Atlantic can afford to underestimate. Of course,
the risks and rewards could not be clearer. If Ukraine succeeds in
reforming its economy, it could serve as an important beacon of hope
for others in the region and refute the Russian notion that countries
in Russia's neighborhood do not have the freedom to choose their own
future. If it fails, however, it could ``become a huge festering sore
on Europe's frontiers, capable of undermining the political health of
the entire region, including the eastern reaches of the EU itself.''
\7\
    In regard to the upcoming elections, the United States and Europe
must do everything they can to assist the interim government of Ukraine
prepare for its May 25 election. As Secretary Kerry noted in his
testimony yesterday, no one in Kiev has revealed any plans to delay
these elections. As partners, Europe and the United States must ensure
it stays that way. The two sides of the Atlantic will need to deploy
international election monitors and provide Kiev with the tools they
need to ensure free and fair elections, which will be an important step
forward on the road to economic and political recovery.
    As for the task of supporting the interim government in Ukraine as
it copes with an immediate Russian military threat on its border, only
modest steps have been taken by the United States and Europe to date.
Washington sent Deputy Assistant Secretary of Defense Evelyn Farkas to
Kiev to represent Secretary Hagel during Bilateral Defense
Consultations with the Ukrainian Government. That was a good start to a
conversation about Ukraine's short- to medium-term military
requirements but it should ultimately lead to U.S. plans to meet at
least some of those requirements. The United States is also looking at
International Military and Education and Training as well as Foreign
Military Financing.
    NATO is moving forward with its upcoming military exercise in
Ukraine this summer called Rapid Trident, which will bring together
over a thousand international forces. The alliance has expressed its
willingness to intensify its military cooperation with Ukraine,
including assisting in modernizing its military. Individual European
countries, however, have yet to engage the Ukrainians directly on
defense cooperation. In sum, the transatlantic partners have done far
less to respond to Ukraine's defense requests than similar requests
coming from Central and Eastern Europe. So far, that gap hasn't been
that consequential thanks to the incredible restraint that the
Ukrainian military has shown in dealing with tensions both inside and
around its borders. We should caution, however, against relying on that
continued restraint, especially in light of Russia's latest tactics in
eastern Ukraine. It is not unimaginable that Ukraine could soon face a
very serious military threat to the rest of its territory from the tens
of thousands of Russian forces assembled on its border. For that
reason, the United States should accelerate its reviews of Ukrainian
military requests and determine what steps might be taken as soon as
possible. Europeans--primarily the more capable ones--should be
encouraged to assist with those efforts. Some capabilities obviously
require substantial training but that does not apply in all cases,
particularly in regard to requests for ammunition, intelligence sharing
or training.
    transatlantic efforts to date must be considered the opening act
    Europe and the United States deserve some credit for their joint
efforts in recent weeks to reassure allies in Central and Eastern
Europe and support the interim government of Ukraine. NATO and the EU
also merit kudos. But the real test will be whether the initiatives to
date can be paired with a longer term strategy for enhancing engagement
in the region and pairing that strategy with real capabilities and
financial and political assistance. More importantly, the two partners
must correct the mistake they made before the Russian annexation of
Crimea and take the time now to outline the various scenarios they may
be facing in the not too distant future. Are there high-level
consultations among Europeans, Americans, and Ukrainians about how they
would respond to Russian troops moving into eastern Ukraine? Are the
partners thinking about the consequences of delayed Ukrainian
elections? How would Europe and the United States react if Russia were
to take steps to further destabilize Transnistria? A failure to plan
now for such future scenarios risks leaving Europe and the United
States unprepared and would send all the wrong signals to an already
overconfident President Putin.
    I look forward to answering any questions you might have.

----------------
End Notes

    \1\ James Neuger, ``NATO Reassures East Allies as it Questions
Russian Pullback,'' Bloomberg, April 01, 2014.
    \2\ In 1990, in an effort to secure Soviet approval for German
reunification, the parties participating in the Two Plus Four talks
agreed that NATO troops and nuclear weapons would not be stationed in
Eastern Europe. NATO repeated that promise in 1997 during the first
round of NATO enlargement when it stated that it had ``no intentions,
no plans, and no reason'' to send substantial numbers of troops and
military assets to countries bordering the former Soviet Union.
    \3\ Bruno Waterfield and Tony Paterson, ``Ukraine Crisis: Poland
Asks NATO to Station 10,000 Troops on Its Territory,'' The Telegraph,
April 01, 2014.
    \4\ Spiegel Staff, ``Ukraine Crisis Exposes Searching for
Deterrence: Gaps Between Berlin and NATO,'' Der Spiegel Online, April
07, 2014.
    \5\ Matthew Karnitschnig, ``Germany's Angela Merkel Treads Softly
With Russia's Putin On Ukraine,'' The Wall Street Journal, April 7,
2014.
    \6\ Carol Williams, ``Ukraine Needs $35 Billion in Aid to Avert
Default, Interim Leaders Say,'' Los Angeles Times, Feb 24, 2014.
    \7\ Daniela Schwarzer and Constanze Stelzenmuller, ``What Is At
Stake In Ukraine: Europe and the United States Need to Do What It Takes
to Protect the Right of the Eastern Partnership Countries to Choose
Their Future,'' German Marshall Fund of the United States, European
Policy Paper 1/2014 (March 2014).

    Senator Murphy. Mr. Brzezinski.

  STATEMENT OF IAN BRZEZINSKI, RESIDENT SENIOR FELLOW, BRENT
 SCOWCROFT CENTER ON INTERNATIONAL SECURITY, ATLANTIC COUNCIL,
                         WASHINGTON, DC

    Mr. Brzezinski. Chairman Murphy, Ranking Member Johnson, I
am honored to speak at this hearing on Central and Eastern
Europe.
    Russia's coercion and invasion of Ukraine presents a
significant challenge to the security of Europe and to U.S.
leadership and credibility. To date, the West has yet to
generate a response that is likely to deter Moscow from further
aggression.
    The actions of the United States in this crisis should be
guided by three mutually reinforcing objectives: to deter
Russia from further aggression against Ukraine and other
neighboring countries, to reinforce Ukraine's confidence in its
capacity for self-defense, and to assist Ukraine in its effort
to become a modern, prosperous democratic European state. Allow
me to briefly review six realms of initiatives that serve these
objectives.
    First, we need firmer economic sanctions against Russia.
The current set are clearly insufficient. Their overly
selective scope has created little more than badges of courage
among Russia's crony elite rather than the systemic economic
pain necessary to make an authoritarian regime rethink its
actions.
    Second, the West's economic and diplomatic sanctions need
to be complemented by a robust strategy to shore up NATO's
allies in Ukraine. NATO's response to the invasion of Ukraine
has been underwhelming. It has been limited to brooding
ministerials, taskings of force posture studies, and a largely
symbolic reinforcement of NATO air space. This underwhelming
response reinforces concern about NATO's ability to act
decisively, about the U.S. pivot to Asia, and about the
reduction of U.S. combat capability in Europe. It affirms those
who say Washington's commitment has declined.
    The United States and NATO should reinforce Central
European allies in the following ways. It should deploy now a
ground combat brigade with air support to Poland and Romania.
It should deploy special operation contingents to the Baltic
States. The alliance should rescind the provision in the 1997
NATO-Russia Founding Act that asserts the alliance has no
intention to base significant military combat presence in
Central Europe. The United States should freeze the reduction
of U.S. forces in Europe and direct EUCOM to present options to
make permanent the deployments I just suggested. And our West
European allies should be encouraged to do the same. These
steps would help generate a context of security and confidence
to Ukraine's immediate west.
    Third, we need to provide military assurance to Ukraine. To
date, NATO and the United States have unwisely drawn a redline
on the alliance's eastern frontier, a redline that leaves Kiev
militarily isolated.
    That redline can and should be erased in the following
ways. We should grant Ukraine's request for military equipment
immediately and include antitank and antiaircraft weapons. U.S.
equipment, I might add, would re-animate in Moscow unpleasant
memories of when Soviet forces encountered them in Afghanistan.
    We should deploy to Ukraine intelligence and surveillance
capabilities and military trainers. This would force Moscow to
consider the repercussions of any actions it takes affecting
that presence. The United States deployment of military
trainers to Georgia after it was invaded by Russia contributed
usefully to that country's security. And, we should conduct now
a major military exercise in Ukraine to help train its
military. Waiting until June, as is currently planned by NATO,
only incentivizes Russia to take military action earlier. None
of these initiatives would threaten Russian territory. They
would, however, introduce uncertainty in Moscow's military
planning and force it to consider the risks of a costly and
prolonged military conflict should it further its invasion of
Ukraine.
    Fourth, the West needs to reinforce Ukraine's resilience to
Russia's propaganda campaign, which is the most intense we have
seen since the end of the cold war. I am glad to hear Secretary
Nuland outline actions that were taken, but I wonder if it is
sufficient. This campaign threatens Ukraine's ability to
conduct free and fair elections, it weakens the political unity
required for Ukraine to undertake necessary and painful
economic reforms, and it creates opportunity for the
provocateurs Moscow has sent to the country.
    Fifth, we need to support Ukraine's effort to reform its
economy and integrate into Europe. Washington has done well in
mobilizing international financial support for Ukraine. One
area where we can do more is supporting the diversification of
Ukraine's energy supplies and the integration of Ukraine's
energy market into that of Europe. Freeing up U.S. LNG exports,
to that they can be accessed by Central and Eastern Europe,
would serve this priority.
    And finally, the West needs to reanimate the vision of a
Europe whole and free. The situation in Eastern Europe today
necessitates that NATO make clear its open door policy is no
passive phrase or empty slogan. Reaffirmation of this vision is
an important way to underscore Washington's commitment to the
security of Central and Eastern Europe.
    And for these reasons, no decision or recommendation should
be permitted or advanced that would in any way limit its
applicability to any European country. Senator Johnson, that is
why your concern about the proposal to ``Finlandize'' Ukraine
is warranted. It would reward Putin for his aggression. It
would bring us back to an age when great powers decided the
futures of other countries. It would violate the spirit of the
Maidon in which the Ukrainians went out and courageously
articulated their desire to be part of Europe. Those wings
should not be clipped at this point. And let me add we cannot
really trust Putin to live up to such an agreement. A Ukraine
that has had neutrality imposed upon would just encourage him
to continue chipping away at its sovereignty and independence.
    Let me conclude by saying the most effective way to counter
Putin's hegemonic aspirations is to deny them opportunity for
actualization. The presence of secure and prosperous
democracies in Russia's neighborhood is not threatening, but it
can help redirect Moscow's focus toward pressing internal
problems. It may even provide momentum to those Russians who
have grown wary of authoritarianism, corruption, and antiquated
notions of empire.
    Security in Central and Eastern Europe has always been
essential to the forging of a true and enduring partnership
between Europe and Russia and between Washington and Moscow.
    Thank you.
    [The prepared statement of Mr. Brzezinski follows:]

                  Prepared Statement Ian J. Brzezinski

    Chairman Murphy, Ranking Member Johnson, members of the committee,
I am honored to speak at this hearing on the state of our interests in
Central and Eastern Europe.
    Russia's aggression against Ukraine presents a significant
challenge to the security and stability of Europe and to U.S.
leadership and credibility. For the second time in less than 6 years,
Russia has invaded a neighboring country simply because that nation
sought to move closer to Europe and to integrate itself into that
community's multilateral organizations. As was the case with Russia's
invasion of Georgia in 2008, the West has yet to generate a response to
its seizure of Crimea that is likely to deter Moscow from further
aggression against Ukraine or other states in Eastern Europe and along
Russia's periphery.
    The Kremlin's actions against Ukraine are but one element of a
sustained revanchist policy that Vladimir Putin has articulated and
exercised ever since he became President of Russia at the end of 1999.
His objective has been to reestablish Russian hegemony, if not full
control, over the space of the former Soviet Union. Toward this end, he
has applied the full suite of Russian economic, energy, political, and
military capacities to weaken and dominate neighboring states. He has
leveraged information and cyber warfare, corruption and criminal
networks, political provocateurs, separatist groups, frozen conflicts,
and military incursions, among other means. His campaign history
includes the 2007 cyber attack against Estonia, the separatist movement
in Moldova, energy embargoes against Lithuania and Ukraine, and the
aforementioned invasion of Georgia.
    President Putin's strategy is one that pursues 20th-century
objectives through 21st-century techniques and old-fashioned brute
force. The implications of this most recent aggression against Ukraine
include the following:
    First, it is an unprovoked violation of the territorial sovereignty
of a European nation--in this case the continent's second largest
situated at the strategically significant crossroads of Europe and
Eurasia.
    Second, it undercuts efforts to curb the proliferation of weapons
of mass destruction. Russia's seizure of Crimea is a direct violation
of the 1994 Budapest Agreement in which Russia agreed to respect and
protect Ukraine's territorial integrity in return for Kiev giving up
the nuclear arsenal it inherited from the U.S.S.R.
    Third, Putin's assertion that he has the unilateral right to redraw
borders on the grounds that he is protecting ethnic Russians
reintroduces into Europe a dangerous principle that provoked wars and
caused countless deaths in earlier centuries and that we all hoped had
been relegated to that past.
    Fourth, Russia's incursion into Ukraine is a direct threat to the
vision of Europe, whole, free, and secure. President Putin's objectives
would create a new confrontational divide in Europe, between a
community defined by self-determination, democracy, and rule of law and
one burdened by authoritarianism, hegemony, and occupation.
    Fifth, the aggression against Ukraine constitutes a challenge to
the credibility of U.S. leadership. It serves Moscow's desire to
portray Washington and NATO as lacking the diplomatic, economic, and
military capability and will to counter effectively Russian power.
    The response of the United States should be guided by three
overlapping and mutually reinforcing objectives:

  <bullet> To deter Russia from further aggression against Ukraine and
        other neighboring countries;
  <bullet> To reinforce Ukraine's confidence in its capacity to defend
        itself; and,
  <bullet> To assist Ukraine in its effort to become a modern,
        prosperous democratic European state.

    These objectives can be pursued through immediate and longer term
initiatives that will impose economic and geopolitical costs on Russia,
increase the risks to Moscow of further provocative behavior, reinforce
Central and Eastern Europe's sense of security, enhance Ukraine's
capacity for defense, and help it transform into a successful,
democratic, and prosperous European state. These include:

    (1) Firmer Economic Sanctions against Russia: Current economic
sanctions against Russia are clearly insufficient. Russian forces
remain mobilized on Ukraine's border, the Kremlin still asserts the
right to intervene in Ukraine, and its effort to destabilize Ukraine
continues unabated.
    Russia is a country that takes great pride in its history of
enduring extreme economic hardship and military pain. It is not a
polity where foreign economic sanctions against a limited set of
Russian individuals and a bank or two will generate dynamics
threatening to Putin's control in the near or medium term. The fact is
that most of Russia today conducts business as usual, including with
its American and European business partners. The overly narrow scope of
these sanctions has let them be portrayed as badges of courage among
Russia's crony elite rather than creating the systemic economic pain
necessary to make an authoritarian regime rethink its actions.
    Congress' provision to the president of authority to expand the set
of sanctioned officials and entities to those involved in corruption
should be leveraged immediately by the Obama administration. Widening
the sanctions list is needed to have a more significant and immediate
impact on Russia's financial operations, and the option Congress has
offered cleverly ties those sanctions to a concern that generates real
antigovernment outrage in the Russian population: corruption.

    (2) Strengthened Defense of Central Europe: NATO's response to the
invasion of Ukraine has been underwhelming. In its Crimea operation,
Russia mobilized over 100,000 troops on its western frontier and
invaded the peninsula with 20-30,000 troops. Today, tens of thousands
of Russian soldiers backed by armor and air capacities are poised in
high readiness on Ukraine's eastern borders.
    Six weeks after the start of that invasion, the alliance's reaction
is a largely symbolic reinforcement of Baltic, Polish, and Romanian
airspace with NATO AWACS and a two-dozen allied aircraft, most of which
are U.S. F-15s and F-16s. Washington also announced that it is sending
175 marines to its forward operating base in Romania and a ship to the
Black Sea.
    This hesitant response has been unnerving to NATO's Central
European allies and partners. It has reinforced their concerns about
NATO's ability to act decisively, about the United States declared
``pivot to Asia,'' and over the reduction of U.S. combat capability in
Europe. It strengthens the assertions of those who say that
Washington's commitment to Europe's security has declined.
    Immediate steps that should be taken by the United States and NATO
to reinforce Central European allies include the following:

  <bullet> The deployment of a brigade-level combat capability with air
        support to Poland and Romania. (This could involve the U.S.
        combat brigade team that the Department of Defense has
        regionally aligned for Europe.)
  <bullet> The initiation of military exercises in the Baltic Sea and
        in the Baltic States and the deployment of special forces
        contingents to those countries.
  <bullet> Rescinding the provision of the 1997 NATO-Russia Founding
        Act in which the alliance asserted that it had no need to
        permanently station significant combat capability on the
        territory of new NATO member states. As long as Crimea remains
        occupied by Russian forces, this policy, which was formulated
        in a time of partnership with Moscow, should be shelved.
  <bullet> An immediate freeze of the execution of President Obama's
        2012 decision to
        reduce U.S. combat capability in Europe and a reorientation of
        the U.S. European Command's on-going review that portends
        further reductions of U.S. forces and presence. That
        reorientation should be geared toward redefining EUCOM's
        requirements in the face of Russia's increasingly aggressive
        posture. Special consideration should be given to permanently
        deploying brigade-level combat capability in Central Europe,
        and our West European allies should be encouraged to do the
        same.

    These immediate steps backed by the articulation of longer term
force redeployment plans would build a context of security and
confidence to Ukraine's immediate west. They are reasonable in light of
Russia's long-term military buildup in the region and the magnitude of
its aggression against Ukraine. They would constitute a clear setback
for Moscow's regional aspirations, at least for those defined by
President Putin.

    (3) Military Assurance to Ukraine:\1\ As NATO reinforces the
territory of its member states, it also must bolster Ukraine's self-
defense capability and self-confidence, and avoid steps that militarily
isolate Kiev.
---------------------------------------------------------------------------
    \1\ Parts of this section were adapted from Ian Brzeinski's ``Three
Ways NATO can Bolster Ukraine's Security,'' The Washington Post, 25
March 2014.
---------------------------------------------------------------------------
    To date, NATO and the United States have done the latter. They have
refused Ukraine's request for weapons that would help it better defend
itself. NATO leaders, including President Obama, have publicly stated
that they will not be drawn into a ``military excursion'' against
Russia. This, in combination with the small scale of NATO's
reinforcement of Central Europe, draws a redline, a limit to action, on
the alliance's eastern frontier that in essence leaves Keiv to fend for
itself.
    It must be deeply disillusioning for Ukrainians who in recent
months have so courageously expressed their desire for freedom and a
place in Europe--and whose military are recently as November
contributed to a NATO collective defense exercise, STEADFAST JAZZ. The
West's self-imposed redline only reassures Vladimir Putin and his
military planners, whose use in Crimea of unmarked military personnel--
and the plausible deniability they provided--reflected at least initial
concern about potential responses from NATO.
    The following are defensive measures the United States and NATO can
take to directly bolster Ukraine's security:

  <bullet> Ukraine's request for military equipment should be
        immediately granted, and antitank and antiaircraft weapons
        should be included. Equipment and weapons could quickly be
        transferred from prepositioned U.S. military stocks in Europe.
        If NATO cannot attain the consensus to offer such help, then
        Washington should forge a coalition of the willing or act on
        its own. These weapons would complicate Russian military
        planning and add risk to its operations against Ukraine. U.S.
        equipment, in particular, would bring back unpleasant memories
        of when Soviet forces last encountered them in Afghanistan.
  <bullet> The alliance or a U.S.-led coalition should deploy
        intelligence and surveillance capabilities and military
        trainers to Ukraine. This would provide needed situational
        awareness and help the Ukrainian military maximize its
        defensive capacities. It also would force Moscow to consider
        the potential political and military repercussions of any
        actions that affect that presence. The deployment of military
        trainers to Georgia was one of the more effective elements of
        the U.S. effort to bolster Georgia's security after it was
        invaded by Russia in 2008.
  <bullet> NATO allies and partners should conduct now a military
        exercise in Ukraine as part of the effort to train the
        Ukrainian military. The alliance's plan to schedule exercises
        in Ukraine later in May and June seems to ignore Putin's
        timelines and could incentivize Russia to take additional
        military action before then.

    Regarding this last recommendation, the NATO Response Force is well
suited for such an operation. It was created to deploy on short notice
a brigade-level force backed by combat air support. The NRF offers a
means to demonstrate Western resolve prudently and rapidly. While it
has the potential to significantly reinforce Ukraine's defense against
a sudden Russian offensive, it is certainly not big enough to
jeopardize Russia's territorial integrity.
    Each of these initiatives would complicate Putin's ambitions
regarding Ukraine and could be executed in the near term. None would
present a threat to Russia. They would, however, erase the redline the
alliance has mistakenly created, assure Ukrainians that they are not
alone, demonstrate that President Putin is unable to intimidate the
West, and force Moscow to consider the possibility of a much more
costly and prolonged military conflict.

    (4) Reinforced Public Diplomacy/Information Capability: Another
priority is countering Russia's significant propaganda effort to foster
dissension and turmoil in Ukraine. As long as President Putin has been
in power, Russia has used its formidable state-controlled media, which
is widely distributed in Ukraine, to influence Ukrainian political
events, including elections. Since the November outbreak of protests in
Kiev against then-President Yanukovych, Moscow has turned up its
disinformation war against Ukraine to a level not seen since the cold
war.
    Left unaddressed, this campaign threatens Ukraine's ability to
conduct a free and fair election in May for a new President. It weakens
the political unity Ukraine needs to undertake necessary and painful
economic reforms, and it creates opportunity for the often-violent
provocateurs Moscow has sent into the country.
    Congress is to be commended for directing resources to reinforce
U.S. public broadcasting in the region. It is an important step in
strengthening Kiev's resilience against information warfare. Expanding
Ukrainian, U.S., and international dissemination of accurate, credible
information and news through all forms of media throughout Ukraine and
increasing the presence of international observers there is essential
to neutralizing Russia's efforts to destabilize Ukraine.

    (5) Support to Ukraine's Economic Transformation and Integration
into Europe: Ukraine's emergence as a stable and secure part of Europe
is, of course, not just a military issue. It will require Ukraine to
evolve into a prosperous and fully democratic polity, characterized by
freedom and rule of law. In the context of Russia's military
aggression, that transformation is particularly challenging and will
require significant Western economic assistance.
    The West, with U.S. leadership, has done well in mobilizing
international financial support for Ukraine. The evolving IMF loan
package, the European Union's assistance package and contributions by
others in the international community, including by the United States
and this Congress, promises Ukraine a needed foundation upon which to
launch long-overdue fundamental reform.
    One realm of economic transformation meriting further U.S.
Government action is the diversification of Ukraine's energy supplies
and its integration into the European energy market. Allowing the
nations of Central and Eastern Europe direct and unfettered access to
U.S. liquefied natural gas (LNG) exports would significantly enhance
energy security in the region including that of Ukraine. It would
undercut Moscow's excessive leverage in their gas markets.
    Increased access to LNG would help drive forward infrastructure
plans and investments that are linking the energy markets of this
region and integrating them into that of Western Europe. It would
enhance the prospects of the North-South gas corridor in Central Europe
linking the Adriatic and Baltic Seas, offshoots of which would tie into
Ukraine's pipeline network. Access to cheaper, reliably sourced energy
would serve this region as a powerful economic stimulus.
    Europe's need for U.S. energy exports has never been more urgent. A
decision today to allow such exports would immediately send to allies
and adversaries a powerful political signal of transatlantic
solidarity. In the medium and long term, it would serve as a
cornerstone of a transatlantic energy market that can only reinforce
the solidarity of this important community of democracies.

    (6) Reanimating the Vision of Europe Whole and Free: One of the key
principals guiding U.S. policy toward Central and Eastern Europe since
the fall of the Berlin Wall has been the vision of Europe, undivided,
secure, and free. The West, led by the United States, must ensure that
this vision is neither weakened nor perceived as having been derailed
by Moscow's intimidation.
    NATO will, in all likelihood, conduct its summit meeting in
Cardiff, UK, this September in the context of Russia's provocative
aggression against Ukraine. In addition to addressing its defense
capabilities and the credibility of its Article V commitment to its
member states, the alliance should use the moment to reanimate the
process of NATO enlargement.
    NATO must make clear that its ``open-door policy'' for membership
is no passive phrase or empty slogan. Toward, that end, it should
extend an invitation to Montenegro, a country that has made significant
progress since 2009 under the alliance's Membership Action Plan.
    Reaffirmation of Washington's adherence to this vision is an
important way to underscore Washington's commitment to the security of
Central and Eastern Europe. And, for these reasons, no decision or
recommendation should be permitted or advanced that would in anyway
limit its applicability to any country of Europe.
                               conclusion
    The absence of a firm Western response to Russia's invasion of
Ukraine will only encourage Putin to act aggressively, be it to drive
deeper into Ukraine, make another attempt to seize Georgia, expand
Russia's occupation of Moldovan territory or grab other areas that were
once part of the Soviet Union.
    The steps outlined above are prudent, defensive, mutually
reinforcing and consistent with the aspirations of the Ukrainian people
to live in peace, in freedom, and as part of Europe.
    By enhancing the security of Ukraine and the region, they will
contribute substantively to a context favorable for genuine and
enduring cooperation with Russia. The most effective way to counter
President's Putin's hegemonic aspirations is to deny them opportunity
for actualization. Russia will not be threatened by, but can only
benefit from, having secure and prosperous democracies in its
neighborhood. Such a development will help redirect the focus of
authorities in Moscow to Russia's pressing internal problems. It may
even provide momentum for those Russians who have grown weary of
authoritarianism, corruption and antiquated notions of empire. Security
in Central and Eastern Europe has always been the most effective way to
forge a true and enduring partnership between Europe and Russia, and
between Washington and Moscow.

    Senator Murphy. Thank you. I will turn the panel over to
Mr. Chow, and I am going to turn the gavel over to Senator
Cardin.
    Mr. Chow.

STATEMENT OF EDWARD C. CHOW, SENIOR FELLOW, ENERGY AND NATIONAL
   SECURITY PROGRAM, CENTER FOR STRATEGIC AND INTERNATIONAL
                    STUDIES, WASHINGTON, DC

    Mr. Chow. Thank you, Mr. Chairman, Ranking Member Johnson,
Senator Cardin. I am honored to return to this committee 2
years after testifying before you on the serious and growing
energy vulnerability of Ukraine, which is much in the news
today.
    My fellow panelists have covered very well the various hard
and soft security challenges for Central and Eastern Europe.
Since my own competence is limited to energy, I will focus on
the threats and opportunities that sector presents to this
region.
    The legacy of the Warsaw Pact and Comecon left most of
these countries reliant on Russia for their oil, gas, and
nuclear fuel supplies, which were conducted under barter and
other nonmarket trading terms. Transforming a highly
inefficient and polluting energy economy necessitated a painful
transition along with overall economic restructuring.
Historical suspicion in the actual use of energy as a political
tool by Russia gave further impetus to the drive to modernize
the energy economy.
    In general, countries that chose a speedier path for
transition, full privatization of previously state-owned energy
assets, introduction of market competition, and transparent
regulation by independent bodies, adoption of European
standards and business practices are in better condition today
than those countries with state-owned companies that retained
old business practices and relationships with their traditional
supplier of imported fuels.
    State companies in these countries continue to dominate the
energy sector so that politics rather than market forces
determine outcomes. Countries that have a coastline and,
therefore, better access to crude oil and petroleum product
imports from the international market and countries with
significant indigenous energy production, such as Poland with
coal and Romania with oil and gas, are less vulnerable to
supply cutoffs.
    Preemptive action also mitigated vulnerability to cutoffs.
The Czech Republic's decision to build an oil pipeline from
Bavaria in the mid-1990s is an example of a country which
invested early on to reduce the risk of supply cutoffs. Until
then, Czech refineries were totally dependent on crude supplies
from the Soviet era Southern Druzhba pipeline from Russia and
Ukraine. Poland and Lithuania's decision to commission
liquefied natural gas receiving terminals are more recent
examples of committed action to diversified energy supplies.
    The potential for shale gas from a geological trend, which
extends from southern Lithuania across Poland, Ukraine,
Romania, to Bulgaria, offers good prospects for developing
indigenous energy supply in the medium term that are affordable
and environmentally beneficial.
    European integration offers the best opportunity for energy
modernization. The pathway to the European Union includes funds
to assist reform and restructuring of the sector and to remove
energy corruption by adopting European standards and business
practices. The EU also offers funds for important
infrastructure improvements, such as interconnector pipelines
capable of reverse flows.
    Market integration is critical for smaller countries in
this region to achieve better diversity of energy supply. The
energy industry relies on economy of scale to justify
multibillion investments. Therefore, it is difficult for
individual countries to economically justify diversification
projects on their own without being connected to the energy
markets of their neighbors with pipeline infrastructure, shared
storage facilities, connected electricity grids, and sound
commercial arrangements.
    Unfortunately, the process of market integration has been
painfully slow, and results have been mixed at best for the
free flow of gas and electricity. Without market integration,
the region simply cannot afford the energy supply diversity it
wants.
    Bulgaria is a prime example of a country which has not
taken full advantage of a splendid geographic location and
opportunities to connect with its neighbors in energy, failed
to fully utilize EU accession funds for this purpose, stalled
development of its shale gas potential, and is today not much
better off than in 2006 and 2009, the last two gas cutoffs
between Russia and Ukraine.
    Since I testified previously before this subcommittee about
the sorry state of the Ukrainian energy economy, and this topic
came up in my testimony before the Senate Energy Committee 2
weeks ago, I will not spend much time talking about Ukraine
here and leave this subject to the question period if Senators
are interested.
    Suffice it to say that Ukraine and its long, troubled gas
relations with Russia remain the biggest supply vulnerability
for the region. Half of Russian gas sales to all of Europe
still transits Ukraine in spite of Russia's continuing efforts
to bypass Ukraine. Ukraine is the dominant, in some cases the
exclusive, route for gas imports to most Central and
Southeastern European countries.
    The potential benefits of energy sector reform in Ukraine
remain enormous, and it is now more urgent than ever. There is
much that countries from Central and Eastern Europe, which has
gone through a successful transition to a modern energy
economy, can offer Ukraine in terms of sharing lessons learned
and assisting in capacity-building.
    These are also countries which will be affected seriously
by the possible collapse of the Ukrainian state. In many of
these areas,
it is natural for Europe to take the lead given its proximity
and shared interest. However, the urgency and seriousness of
the crisis in Ukraine demand American leadership and for us to
coordinate our efforts with your European friends and with
international financial institutions while enforcing strict
compliance on the current and future governments of Ukraine to
meet commitments to reform its critical energy sector as a
condition for Western aid.
    Thank you for your attention.
    [The prepared statement of Mr. Chow follows:]

                  Prepared Statement of Edward C. Chow

    Mr. Chairman, members of the committee, it is an honor for me to
return to the European subcommittee 2 years after I testified before
you on the serious, growing energy vulnerability of Ukraine, which is
much in the news today.
    My fellow panelists have already covered very well the various hard
and soft security challenges for Central and Eastern Europe. Since my
own competence is limited to energy, I will focus on the threats and
opportunities that sector presents to countries in this region.
    More than 20 years after the fall of the Iron Curtain and the
transition from a command economy to a market economy, the energy
economy of this region depends on three primary factors for each
individual country:

          1. Geography and availability of indigenous energy sources;
          2. The state of modernization of the energy sector;
          3. European integration.

    The legacy of the Warsaw Pact and Comecon left most of these
countries reliant on Russia for its oil, gas, and nuclear fuel
supplies, which were conducted under barter and other nonmarket trading
terms, when they regained their full political independence.
Transforming a highly inefficient and polluting energy economy
necessitated a painful transition, along with overall economic
restructuring. Historical suspicion and actual use of energy as a
political tool by Russia gave further impetus to the drive for
modernization of the energy economy.
    In general, the countries that chose a speedier path for
transition--full privatization of previously state-owned energy assets,
introduction of market competition and transparent regulation by
independent bodies, adoption of European standards and business
practices--are in a better condition today than those countries with
state-owned and controlled companies that maintain old business
practices with traditional suppliers of imported fuels and continue to
dominate the energy sector so that politics rather than market forces
determine outcomes.
    In general, countries with a coastline and better access to crude
oil and petroleum imports and countries with significant indigenous
energy production, such as Poland with coal and Romania with oil and
gas, are less vulnerable to supply cutoffs. However preemptive action
has also mitigated vulnerability to cutoffs. For example, the Czech
Republic's courageous decision to build an oil pipeline from Bavaria
(Ingolstadt-Kralupy-Litvinov) in the mid-1990s in midst of its breakup
with Slovakia is an example of an inland country, which invested early
on to reduce its vulnerability to supply cutoffs. Until then, Czech
refineries were totally dependent on crude oil supplies from the
Soviet-era Southern Druzhba pipeline from Russia and Ukraine. Poland
and Lithuania's decisions to commission liquefied natural gas (LNG)
receiving terminals are more recent examples of real action on
commitment to diversify energy supplies.
    The potential for shale gas from a geological trend, which extends
from southern Lithuania, across Poland, Ukraine, Romania to Bulgaria,
offers an excellent opportunity to develop indigenous energy resources
in the medium term that are affordable and environmentally beneficial.
    European integration offers the best opportunity for energy
modernization. The pathway to the European Union includes funds to
assist much-needed reform and restructuring of the sector, and removing
corruption by adopting European standards and business practices. The
EU also offers funds for important infrastructural improvements, such
as interconnector pipelines capable of reverse flows.
    Market integration is critical to the smaller countries in this
region achieving better diversity of energy supply. The energy industry
relies on economy of scale to justify multibillion dollar investments.
The entire population of the Balkans is smaller than the population of
Turkey. Therefore, it is difficult for individual countries in
southeastern Europe to economically justify projects for supply
diversity on their own without being connected to the energy markets of
their neighbors with pipeline infrastructure, shared storage
facilities, connected electric grids, and sound commercial
arrangements.
    Unfortunately, the process of market integration in this region has
been painfully slow and results have been mixed at best. Without market
integration, the region simply cannot afford the energy supply
diversity it says it wants. Bulgaria is a prime example of a country
which has not taken full advantage of its excellent geography and
opportunities to connect with its neighbors in energy, failed to fully
utilize EU accession funds for this purpose, has not developed its
shale gas potential, and is today not much better off in terms of
supply vulnerability from, let's say, a gas cutoff between Russia and
Ukraine, than it was in 2006 and 2009.
    Since I testified previously before this subcommittee about the
sorry state of the Ukrainian energy economy and this topic came up in
my testimony before the Senate Energy and Natural Resource Committee 2
weeks ago, I will not spend much time talking about Ukraine here and
leave this subject to the question period if Senators are interested.
    Suffice it to say that Ukraine and its troubling gas relations with
Russia remains the most important example of supply vulnerability for
countries in central and southeastern Europe. Half of Russian gas sales
to Europe still transits Ukraine, in spite of Russia's continuing
efforts to bypass Ukraine. Ukraine is the dominant, in some cases the
exclusive, route for Russian gas supply to central and southeastern
European countries which is also their sole import source.
    The potential benefits of energy sector reform in Ukraine remains
enormous and it is now more urgent than ever. There is much that
countries from Central and eastern Europe, which has gone through a
successful transition to a modern energy economy, can offer Ukraine in
terms of sharing lessons learned and assisting in capacity-building.
They are also the countries which will be most affected by the collapse
of the Ukrainian state.
    In many of these areas, it is natural for Europe to take the lead
given its proximity and shared interests. However, given the urgency
and seriousness of the crisis in Ukraine, the United States must play
an important role and coordinate our efforts with our European friends
and international financial institutions, while enforcing strict
compliance on the current and future governments of Ukraine in meeting
commitments to reform its critical energy sector as a condition for
providing Western aid.

    Senator Cardin [presiding]. Thank you for your testimony.
Thank all three of you for your testimony. Senator Johnson to
inquire?
    Senator Johnson. Thank you, Senator Cardin. Mr. Brzezinski,
you obviously are recommending a more robust response than what
we are seeing today. You also mentioned a more robust response
than we are hearing that was actually implemented in Georgia.
Can you just go in greater detail in terms of what the United
States actually did versus what is being reported in the press
nowadays and how that had an effect?
    Mr. Brzezinski. When I look back to the Georgia crisis, I
cannot look back and say that was a successful example of the
West's response to aggression by a great power against a small
country that supported us in Afghanistan and elsewhere. But
some of the things that we did do right include the following.
    One, we demonstrated we are willing to take military risk.
So, for example, when the Chairman of the Joint Chiefs of
Staff, Admiral Mullen, called his Russian counterpart and said
that we are going to fly back, in United States military
aircraft, the Georgian troops serving in Iraq or Afghanistan,
the Russian general threatened to shoot down the U.S. transport
aircraft--this is documented in a New York Times article.
Admiral Mullen responded swiftly and firmly, stating simply
that this would be a mistake. The planes will be flying to
Georgia. That was a signal to the Russians that the United
States was serious.
    The second thing we did to assure the Georgians was to
provide them military equipment, including arms. We deployed
trainers in Georgia. These marines who went out there and
deployed were embedded in the Georgian military units they were
training, which raised the prospect of them getting caught up
in any sort of action the Russians might take against the
Georgians. That was an important deterrent.
    Senator Johnson. Do you recall the numbers?
    Mr. Brzezinski. No, I do not.
    Senator Johnson. Okay.
    Mr. Brzezinski. They were not high, so it does not take a
huge amount. But it takes demonstration of resolve and
commitment, and today we have not done that. As you pointed
out, in the beginning of the Ukraine crisis, the Russians
mobilized 100,000 troops in the Western frontier. They deployed
20,000 to 30,000 special forces into Crimea. And what has the
West done? Our response is five or six F-15s to the Baltics, a
dozen or so F-16s to Western Poland, and defensive AWAC flights
along the Romanian and Polish frontiers, and I understand also
a company of marines to Romania. That is about it. That is not
significant. That is not a demonstration of resolve. That
communicates hesitancy to the Russians.
    Senator Johnson. In your written testimony, you were
talking--described in greater detail the types of military
support you would provide to the Ukrainian military. Can you
just speak to that now?
    Mr. Brzezinski. The Ukrainian military is about 129,000
with roughly 80,000 being ground forces. They are not the most
highly equipped. They are not the most highly ready, but they
should not be underestimated. They have had 20 years of
independence. They have been in NATO operations. They have a
joint battalion or brigade with the Poles. They trained in NATO
standards.
    They are more ready than most people expect. They are
capable of taking on Western equipment. I think they should be
given equipment that would help mitigate Russia's strengths in
armor and aircraft. So antitank weapons would be useful,
antiaircraft weapons would be useful. Now, that would not
guarantee them the ability to survive a massive onslaught by
the Russians, but it sure as heck would make it really, really
painful for the Russians, and that should make the Russians
think twice. Right now Moscow does not have to think that way.
    Senator Johnson. It might change the calculus. Ms. Smith,
would you disagree with what Mr. Brzezinski is talking about?
    Ms. Smith. Well, as I stated earlier, I do think the
administration needs to ramp up its review of the defense
requests that have come in to date. I would note that to date,
it is a mix of lethal and nonlethal requests. I have not seen
specific requests for antitank weapons. I have seen ammunition,
small arms as you had mentioned, Senator, as well as some of
the nonlethal support. I do think specifically what would be
extremely helpful would be on the intel-sharing side, and as
Ian pointed out, training will be absolutely indispensable
moving forward.
    Senator Johnson. I mean, part of the problem is when we
heard this actually from the Prime Minister himself, they are
very reluctant to ask for something they know would not be
supplied. I mean, they are intelligent enough about that, so
that is part of the problem.
    Mr. Chow, I read a very interesting op-ed in the Wall
Street Journal talking about LNG permits and the applications
for them here. And the point being made there is just simply
allowing the application process to go through on those LNG
terminals would send a pretty strong signal and have an effect,
even though the LNG would not flowing for a while. Would you
agree or disagree with that assertion?
    Mr. Chow. Thank you, Senator, for the question. I think
from an LNG export policy standpoint and for an oil export
policy standpoint for that matter, there are plenty of reasons
why the United States should reexamine our existing policy and
laws on energy exports given that they were mainly written in
the 1970s at a time where energy scarcity was the driving
motivation for the legislation. And those issues are being
discussed properly in Congress and reviewed and this
reexamination should take its course. So I am in favor of the
idea of looking at the level of LNG and other energy exports
again.
    My concern is trumpeting a tool that is ineffective, in the
short to medium term, may have counterproductive consequences.
Ukraine does not have an LNG terminal. If it were to have one
and the Turks were to allow LNG tankers to go through the
Bosporus, it would take at least 2 years to build. We do not
have any capability of sending any LNG until maybe 2016, and
the volume of capacity that the Department of Energy has
already approved is quite robust already. It is about 95
billion cubic meters per year, more than the consumption of
Germany.
    So what we are doing is already having an effect, but to
threaten the Russians with something that they know cannot
happen for 2 or 3 years may be counterproductive. And my
reaction as an energy person is to say that the Russian
reaction would be ``if that is the best you have got, then we
have nothing to worry about.''
    Senator Johnson. Okay. Well, thank you all for your
testimony.
    Senator Cardin. Once again, thank you. Mr. Chow, let me
just follow up on that for a moment if I might, and that is you
mentioned that any solution with LNG in regards to Ukraine
would be mid-term and long-term solutions, not just short-term.
Can you just review with us what we should be doing in the
short term?
    Russia has a double-edged sword here. They can absolutely
apply different pressure on Ukraine by either raising prices or
cutting off, but it is a very profitable source of income for
Russia. And, of course, a lot of the energy goes through the
pipelines to other countries. However, Ukraine needs to make
itself more independent and have alternative sources of energy
and ultimately use less energy, which is an area that, I think,
the IMF is very interested in--energy conservation and the fact
that there is a lot of wasted energy. And of course the pricing
to the consumer has not been reflective of the cost.
    The IMF is instituting certain reforms where there will be
better pricing, and some of the IMF support will go to low
income families to make it more affordable. But do you have
other suggestions as to how Ukraine could become less
vulnerable to Russian pressure in the short term on energy?
    Mr. Chow. Yes, sir. Ukraine is not without leverage on its
energy gas relationship with Russia. Even today more than 50
percent of Russia's exports to Europe, which, as you pointed
out, is this prime market for gas exports, go through Ukraine.
    The problem in the past 20-some years is that that leverage
has been used by individual Ukrainian politicians for private
profit or corruption rather than for state interests. So even
today the Ukraine has the means--has the leverage to stabilize
its gas transit and supply relationship with Russia if the
overall political relations were to calm down.
    But in order to do that, it needs to remove the pervasive
corruption in the energy sector in the Ukraine, particularly on
gas. And one thing I would do for sure is to completely
restructure the national oil and gas company, Naftohaz, which
is at the center of that corrupt practice.
    The other thing I would do in addition to what the IMF
rightfully has done in terms of getting market clearing prices
on the consuming side for gas is also to increase wellhead gas
prices. What is happening today is that, if you are a domestic
producer of gas in Ukraine, you are getting a small fraction of
the price that Ukraine pays Russia even 3 months ago. That is a
disincentive to produce more domestic energy.
    And one might question why it is the way it is. Well, you
know, multitier pricing helps create a gray market for gas
domestically in Ukraine, with once again privileged access for
politically connected folks who are the ones who benefit from
it. The rest of the Ukrainian public suffers shortages, even
though they are the ones who are supposedly benefiting from the
low prices. So pricing reform is key to reform, but not just at
the burner tip, but also at the wellhead.
    Senator Cardin. Thank you for that. I think they are all
important points about the economics of the issues. But still I
would hope that we would look at alternative sources other than
Russian energy in the event that there are short-term
strategies deployed by Russia to impose a crisis in Ukraine. I
understand it would also hurt Russia, and I fully appreciate
the reforms that are needed in the energy sector. I could not
agree with you more, but I think your points are very well
taken.
    Let me shift gears to the security issues. And I followed
with great interest the testimony on the seriousness that
Russia takes the commitment to defend territories, whether it
be Ukraine or the countries in that region. And, yes, one thing
we know, Russia does not want to see NATO expanded on their
borders. They do not want to see troops on their borders. They
are very concerned about that. That was the agreement that was
reached that we would not station there.
    I think, though, they are very much aware of our treaty
commitments to NATO allies, so I really do think that is a
consideration even for a person like Mr. Putin before he would
take action against a NATO ally. But there are other countries
in that region that are not NATO allies. Georgia is interested
in becoming a NATO partner. That would present a very
interesting dynamic to Russia. Ukraine is a little bit early.
They have not moved in that direction. Russia certainly does
not want to see Ukraine become a NATO partner.
    But I think moving in that direction would be exactly what
Russia does not want to see happen. And it would be interesting
from the point of view of trying to counter what Russia is
doing today if there were more interest in more common defense,
such as NATO, in regards to that region.
    So I would just like to get your views as to NATO
expansion. Europe has been reluctant on NATO expansion for
reasons unrelated to the Russian created crisis. There will be
a meeting later this year in which there will be considerations
of countries for NATO accession.
    What is your view as to how helpful that would be in making
it clear to Russia that we are very serious about protecting
the territorial integrity of countries in the region?
    Ms. Smith. Well, thank you, Senator, for that question. You
are right, the one fundamental question is what does Russia
want, and you are absolutely 100 percent right in your
assessment. The Russians clearly do not want to see any
additional rounds of NATO enlargement.
    The other question, of course, is what does NATO want. And
the answer to that on NATO enlargement depends on who you ask,
as you rightly pointed out. This is a controversial subject.
There is a divide. Part of the alliance is not prepared to
advance forward with NATO enlargement. I think the United
States feels quite passionate about the fact that the door
remains open and that we should not give a country like Russia
any sort of veto over this process whatsoever.
    There is also the question of what a country like Georgia
wants and what it deserves. In my personal view, I think we
have come so far down this road with a country like Georgia, it
is hard to figure out how we would ever exit. I would not
recommend we would exit, but I think there are countries inside
the alliance that would be comfortable prolonging this process
forever.
    But if you look at the sacrifices that Georgian soldiers
have made in a place like Afghanistan, and all they have done
as a true blue partner to the NATO alliance, and how they have
worked to meet the criteria for membership, to me it is
unimaginable that we could slow down this process. Personally I
advocate for Georgia to move forward with MAP at the next
summit. But again, I am skeptical whether or not we will
succeed in doing that because there appears to be a great deal
of hesitation, particularly across some countries in Western
Europe to do that.
    I recognize that that would add an additional security
burden to the alliance, but what better sign of our commitment
from Europe and the United States to a country like Georgia
then to move forward with MAP?
    Senator Cardin. Just add to your answer before turning to
Mr. Brzezinski. What do you think Russia's reaction to NATO
expansion in Georgia would mean?
    Ms. Smith. It could be quite devastating. I mean,
emotionally and symbolically they will raise a complete stink
about this, and they will cry foul on all accounts. It is not
the same as us stationing ground troops in a place like Poland
where they will say, hey, in 1997 you promised not to do that.
There is nothing we ever said about stopping NATO enlargement.
We never made that promise, so they cannot claim that.
    They will claim that we are infringing on their security,
that we are trying to encircle them, trying to contain them.
There will be all sorts of complaints. But the question here is
whether or not we would see Russian irritation, tension in the
relationship, additional further Russian aggression if we did
not do it. And that is the question inside the alliance. Half
of the alliance thinks that this will provoke additional
Russian aggression. Some say, no, it will prevent it if we move
forward with MAP for Georgia, and I fall in that category.
    Senator Cardin. Thank you. Mr. Brzezinski.
    Mr. Brzezinski. Let me just add a couple of points because
I think what Julie says is accurate. There is great division in
the alliance. In fact, there is probably be a predisposition in
the alliance against further enlargement for the reasons she
puts. Part of it is because this administration has not pushed
for NATO enlargement. So in the absence of strong U.S.
leadership and support of enlargement, it is not surprising it
withers on the side of Europe.
    The second point I would make is that NATO is on Russia's
border. As you know, Norway is on Russia's border. Estonia is
on Russia's border. And membership in NATO has not undercut
relations between those two countries and Russia. In fact,
Norway, which has a very good relationship with Russia and is
very proud of their cooperation in the Arctic, for example, and
it is a stalwart NATO member. Poland, a country that has had a
troubled history with Russia, actually had an improvement--a
significant improvement in its relationship with Russia ever
since it became a member of NATO.
    So there is not a real track record of NATO membership
undercutting a relationship with Russia. What has undercut
Russia's relationship with the West and NATO is President Putin
and his aspirations for an antiquated notion of empire, a
dominion over the space of the former Soviet Union, if not
control over that space. And that is the problem that we have.
    I think if we are going to counter that, the most effective
way is to continue the process of enlarging Europe, of
extending EU membership to countries, of steadily pushing NATO
for the countries that seek it and that are ready for it. It
provides security. It is nonthreatening to others. It is a
solid foundation stone for actually a context of enduring
cooperation with Russia.
    As Julie points out, we want to eliminate gray zones from
Europe. Gray zones are like walls: they create separation and
distance. If we can bring communities of democracies closer
together and enhance their security, we are all better off,
including Russia.
    Senator Cardin. Thank you. I think that is very helpful.
And again, I thank all three of you for your testimony. This is
an issue that is going to be around for a while. Unfortunately
we have frozen conflicts in Georgia, Moldova, and Azerbaijan.
And it looks like it is getting pretty cold in Crimea. So it
looks like we are going to be with this for a while. There is
certainly a lot of provocative action by Russia in Eastern
Ukraine, and there is concern in other areas that Russia is
very much planning for additional military options.
    So this issue is very fluid. And I can tell you I think
there is very strong support in Congress to make it clear that
we will not ever accept the grab by Russia--what it is doing in
the Ukraine or any other country.
    So I thank you all for helping the record of this
committee. And with that, the subcommittee will stand
adjourned. Thanks.
    [Whereupon, at 4:43 p.m., the hearing was adjourned.]

                                  <all>
</pre></body></html>
